<html>
<title> - IS THIS ANY WAY TO TREAT OUR TROOPS? PART II: FOLLOW-UP ON CORRECTIVE MEASURES TAKEN AT WALTER REED AND OTHER MEDICAL FACILITIES CARING FOR WOUNDED SOLDIERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 IS THIS ANY WAY TO TREAT OUR TROOPS? PART II: FOLLOW-UP ON CORRECTIVE 
 MEASURES TAKEN AT WALTER REED AND OTHER MEDICAL FACILITIES CARING FOR 
                            WOUNDED SOLDIERS 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 17, 2007

                               __________

                           Serial No. 110-16

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

36-999 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director



























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 17, 2007...................................     1
Statement of:
    Dominguez, Michael L., Principal Deputy Under Secretary of 
      Defense (Personnel and Readiness), U.S. Department of 
      Defense; Major General Gale S. Pollack, Army Surgeon 
      General (acting) and Commander, U.S. Army Medical Command 
      (MEDCOM); and Major General Eric Schoomaker, Commander, 
      Walter Reed Army Medical Center............................    52
        Dominguez, Michael L.....................................    52
        Pollack, Gale S..........................................    72
        Schoomaker, Eric.........................................    86
    West, Togo D., Jr., former Secretary of Veterans Affairs and 
      former Secretary of the Army; Jack Marsh, former Secretary 
      of the Army; Arnold Fisher, senior partner Fisher Brothers 
      New York and chairman of the Board for the Intrepid Museum 
      Foundation; Lawrence Holland, senior enlisted advisor to 
      the Secretary of Defense for Reserve Affairs; Charles 
      ``Chip'' Roadman, former Air Force Surgeon General; and 
      General John Jumper........................................    17
        Marsh, Jack..............................................    19
        West, Togo D., Jr........................................    17
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    15
    Dominguez, Michael L., Principal Deputy Under Secretary of 
      Defense (Personnel and Readiness), U.S. Department of 
      Defense, prepared statement of.............................    54
    Pollack, Major General Gale S., Army Surgeon General (acting) 
      and Commander, U.S. Army Medical Command (MEDCOM), prepared 
      statement of...............................................    75
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Prepared statement of....................................    12
        Various bills............................................    95
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     5
    West, Togo D., Jr., former Secretary of Veterans Affairs and 
      former Secretary of the Army, and Jack Marsh, former 
      Secretary of the Army, prepared statement of...............    21


 IS THIS ANY WAY TO TREAT OUR TROOPS? PART II: FOLLOW-UP ON CORRECTIVE 
 MEASURES TAKEN AT WALTER REED AND OTHER MEDICAL FACILITIES CARING FOR 
                            WOUNDED SOLDIERS

                              ----------                              


                        TUESDAY, APRIL 17, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Yarmuth, Braley, 
McCollum, Cooper, Van Hollen, Hodes, Welch, Shays, Burton, 
Turner, and Foxx.
    Also present: Representative Cummings and Delegate Norton.
    Staff present: Brian Cohen, senior investigator and policy 
advisor; Dave Turk, staff director; Andrew Su and Andy Wright, 
professional staff member; Davis Hake, clerk; David Marin, 
minority staff director; A. Brooke Bennett, minority counsel; 
Grace Washbourne, minority senior professional staff member; 
Nick Palarino, minority senior investigator and policy advisor; 
and Benjamin Chance, minority clerk.
    Mr. Tierney. Good morning, everyone.
    A quorum being present, the Subcommittee on National 
Security and Foreign Affairs' hearing entitled, ``Is This Any 
Way to Treat Our Troops? Part II,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee make opening statements. Without 
objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record. Without objection, so ordered.
    I ask unanimous consent that the following written 
statements be placed on the hearing record: Dr. Allen Glass, a 
military physician who has worked at Walter Reed for 20 years; 
Gary Knight, a former patient at Walter Reed; Patrick Hayes, a 
police officer who has worked at Walter Reed for almost 20 
years; Dr. Richard Gardner, who worked at Winn Army Community 
Hospital at Fort Stewart in Georgia; Specialist Stephen Jones, 
an Iraqi veteran; and Corporal Steve Schultz and his wife, 
Debbie. Without objection, so ordered.
    I ask unanimous consent that the gentleman from Maryland, 
Representative Cummings, and the Delegate from the District of 
Columbia, Representative Eleanor Holmes Norton, members of the 
full Oversight and Government Reform Committee, be permitted to 
participate in the hearing. In accordance with our committee 
practices, they will be recognized after members of the 
subcommittee. Without objection, so ordered.
    We will proceed to opening statements.
    I want to just say good morning to everybody here on the 
panel and all of our witnesses on both panels here today. On 
March 5th, you will recall that this subcommittee convened our 
first ever hearing on the care of wounded soldiers at Walter 
Reed Army Medical Center. I think it is fair to say that all of 
us were appalled by the heart-wrenching stories from Staff 
Sergeant Dan Shannon, Annette McCleod, and Specialist Jeremy 
Duncan. They spoke of living with mold, being lost in the 
bureaucratic abyss, and being treated with a shameful lack of 
respect.
    But their stories are not, unfortunately, isolated 
incidents. After our first hearing, we created a special 
hotline, an e-hotline. We heard from hundreds of people, and 
the problems went well beyond Walter Reed.
    A doctor who had come out of retirement to help out at Winn 
Army Community Hospital at Fort Stewart, GA, said that there 
they were understaffed, overextended, and ``much worse than at 
Walter Reed.''
    A soldier who fought in both Gulf wars spoke of cuts in the 
soldier advocate program at Darnall Army Medical Center in Fort 
Hood, Texas, and that traumatic brain injury patients were 
being un- or under-diagnosed.
    Someone at 29 Palms Marine Base witnessed examples of post 
traumatic stress disorder going undiagnosed, untreated, and 
purposefully ignored to return soldiers to active duty. She 
told us about one navy psychiatrist who said ``clearly he did 
not believe in PTSD.''
    We also, unfortunately, heard additional troubling stories 
about Walter Reed.
    A 20-year police veteran there wrote of cockroaches and 
mice at their police station. He also wrote, ``The [police] 
station is not handicapped accessible, which is ironic 
considering we have a large number of handicapped veterans here 
that may need to come to our station for police services.''
    A Walter Reed JAG lawyer spoke of a broken disability 
review process that under-rates wounded soldiers, a system in 
which there were only three JAG officers and one civilian 
counselor available to represent all wounded soldiers at Walter 
Reed; a system so overburdened there was no time to get an 
outside medical opinion or to adequately prepare for these 
absolutely vital hearings.
    We also heard in the media about computer programs that 
can't talk to each other, a growing backlog of VA disability 
claims, and egregious allegations of still-injured soldiers 
being returned into battle.
    At our March hearing, with the committee's support, I made 
the commitment that this subcommittee would perform sustained 
and aggressive oversight, and as a first step we would followup 
with a hearing in 45 days.
    Today marks the 43rd day, and I hope we will hear across 
the board from our witnesses that the Department of Defense 
acknowledges the seriousness and pervasiveness of these 
problems; that we are rapidly fixing the broken bureaucracy, 
knocking down the institutional walls across the services and 
with the VA Administration, and ensuring that each soldier and 
his or her family is treated with the utmost respect. That is 
what we hope we can hear.
    We will hear today from the Independent Review Group, led 
by distinguished former Army Secretaries Togo West and Jack 
Marsh. Their report, released yesterday, examines the problems 
at Walter Reed and elsewhere and offers a series of 
recommendations.
    I want to thank all of the IRG members and your staff for 
your work, and welcome those members here with us today. I 
don't know if staff is here or not. At some point you may want 
to acknowledge them. They certainly did a great job, as did 
you, and we are really indebted to them and you for your 
service.
    As I suspect all these members will likely agree, we have 
heard many, if not the vast majority, of these findings and 
recommendations from testimony before Congress, from the 
Government Accountability Office auditors, even from the 
President's own 2003 Task Force to Improve Health Care Delivery 
for Our Nation's Veterans. But the problems have not yet been 
fixed.
    In February, this subcommittee asked the Defense Department 
for documents on the problems at Walter Reed. These documents 
show a rash of complaints about the now-infamous Building 18, 
including mold, mouse droppings, roaches, and flea bites so 
severe they required medical attention.
    There is a slide over there that indicates one of the 
complaint forms that we received.
    What is shocking is that these documents don't recount the 
recent problems that were exposed by the Washington Post in 
February. What is remarkable is that these complaints happened 
in the summer of 2005, well before the Post investigation. The 
documents show that, as a result, Building 18 was shut down. In 
the words of the Walter Reed Inspector General at that time, 
``Building 18 was not up to standards for occupancy, and it has 
been temporarily evacuated of all personnel.''
    But then Building 18 was reopened. Specialist Jeremy Duncan 
and others moved in; and inexplicably the same exact thing 
happened again.
    I hope that we don't do here with respect to the broader 
problems identified by the IRG Group and others is to 
``Building 18'' them; that is, to simply paint over the 
problems. We literally and figuratively need to knock down some 
walls, to roll up our sleeves, and to work together to 
completely overhaul the disability ratings process and to 
figure out how best to deal with traumatic brain injuries. Put 
simply, we need to tackle head-on the most difficult problems 
instead of once again simply covering them over with half-
measures.
    The fundamental question we all have to ask ourselves now 
is: what is going to be different this time around in order to 
actually solve these problems?
    I am encouraged that the Independent Review Group has 
assigned specific responsibility to specific officials for 
specific recommendations, so that 2 years down the road 
officials can't just claim that solving a certain problem was 
somebody else's responsibility.
    Many of those who will be responsible and accountable going 
forward will testify on our second panel today. What I want to 
know is very simple: what is going to be different this time 
around under your watch to solve these problems once and for 
all?
    Be assured that as you continue your work, this committee 
will be right there with you--offering constructive advice and 
support where helpful, but also ready to hold people 
accountable where necessary.
    Our mutual goal of ensuring the proper care and respect for 
each patient at each step of the recovery process demands 
nothing less. The American people don't want to hear any 
excuses or empty promises. Our Nation's soldiers and their 
families deserve better.
    These are difficult challenges and it will take our 
cooperative efforts, all of us working together, to make sure 
that this broken system is fixed, fixed quickly, and fixed 
permanently.
    I recently led a bipartisan congressional delegation to 
Afghanistan and met with our soldiers there, including some 
from our Commonwealth of Massachusetts, a young man from 
Waltham, MA, there on the monitors. If, God forbid, any one of 
them gets injured, they deserve to come home to a hero's 
welcome and to the best care and utmost respect we can give 
them, not to a building with mold and mouse droppings, not to a 
maze of impenetrable bureaucracy, and not to a system that 
works against the very soldiers it should be supporting. That, 
to me, and I think to members of this panel, is the job that 
faces us today.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Mr. Shays.
    Mr. Shays. Thank you very much, Mr. Chairman and my 
colleagues. Mr. Chairman, I thank you for your commitment to 
this subcommittee's bipartisan inquiry of medical care for our 
men and women returning from war. If an American injured on the 
battle field in Afghanistan or Iraq arrives quickly to a major 
surgical facility, the chances are he or she will be kept 
alive. If the wounded are transferred to Walter Reed Hospital, 
the medical care they receive is unparalleled.
    But it is after the soldier is treated and then transferred 
into outpatient care that breakdowns occur, both in the 
delivery of outpatient services and with the outpatient 
facilities, themselves. We have seen the deplorable conditions 
of Building 18 and the Byzantine bureaucracy through which 
wounded warriors and their families are subjected.
    These breakdowns, in and of themselves, do not define the 
medical care offered at Walter Reed; however, they are clear 
indications of systemic failings in the outpatient program. No 
one should have to live in conditions like those reported in 
Building 18, and it goes without saying that an outpatient 
should be treated with the same care and focus as an in 
patient. The medical treatment of our wounded warriors is non-
negotiable, and our servicemen and women have earned the right 
to a continuum of care that sets standards.
    Central to the military creed is the promise to leave no 
soldier or Marine on the battlefield, but by subjecting our 
recovering soldiers and their families to appalling outpatient 
conditions we have done just that. We have failed in our 
responsibility to ensure the care of our brave men and women, 
and our task today and into the future is to ensure our war 
wounded are being cared for completely and for as long as they 
need care.
    This committee's oversight into these matters, which 
started under Chairman Tom Davis, has been long and protracted. 
We have heard excuses and promises of improvements, promises of 
changes, and promises that this time things are really going to 
get better. What is different is the imprint of the graphic 
representations of Building 18 and the accompanying calls for 
action have forced action.
    We want to hear what actions to correct these failings have 
been taken and what actions are planned. We also want to hear 
what we collectively need to do to ensure this does not happen 
in the future.
    The Wounded Warrior Assistance Act of 2007, which was 
passed unanimously out of the House, provides a good start 
toward the comprehensive reform of military medical programs, 
but it does not go far enough. Toward that end, a number of us 
advocated for comprehensive legislative proposals designed to 
streamline processes for our war wounded and their families 
caught in the Department of Defense's never-ending bureaucratic 
maze. These proposals were based on the work of this committee 
and subcommittee and were vetted through patients we have 
helped in the past. These proposals included establishing 
medical holdover, MHO, process reform standards to create 
comprehensive oversight of all military medical facilities, 
patients, and hospital staff, and a patient navigator's program 
where independent navigators serve as representatives for 
patients and families.
    Our committee should support legislation supporting a DOD-
wide ombudsman to assist wounded military and their families 
24/7 and establish the standard soldier patient tracking system 
to help family members, installation commanders, patient 
advocates, or ombudsmen office representatives locate any 
patient in the medical holdover process.
    We look forward to hearing other solutions today. We view 
this hearing as an opportunity to identify the best possible 
policies and legislation as required to rehabilitate Walter 
Reed. Goodwill and faith in our military medical system will be 
replenished not by excuses and promises but by solutions and 
actions. We support you, General Schoomaker, and each of our 
witnesses in this process.
    Nearly 150 years ago Abraham Lincoln closed his second 
inaugural address with the following words: ``Let us strive on 
to finish the work we are in, to bind up the Nation's wounds, 
to care for him who shall have born the battle, and for his 
widow and his orphan.'' To care for him who shall have born the 
battle, such was our duty 150 years ago and remains our duty 
today.
    I look forward to our witnesses' testimony today and thank 
each of them for their hard work over the past few months.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Mr. Shays.
    We are going to hear testimony from our panel at this point 
in time, but I want to begin by introducing the witnesses on 
our first panel who look to be almost all of the entire 
Independent Review Group. A few are missing. Two are missing, 
Mr. Schwartz and one other.
    I am going to introduce them in the order in which they are 
sitting to help people.
    To my far left is Mr. Lawrence Holland, senior enlisted 
advisor to the Secretary of Defense for Reserve Affairs. Next 
is the Honorable Jack Marsh, the former Secretary of the Army, 
who is the co-chair of the IRG; Togo West, former Secretary of 
the Army and former Secretary of Veterans Affairs, the other 
co-chair of the IRG; Mr. Charles Chip Roadman, formerly an Air 
Force Surgeon General. We have Arnold Fisher, the senior 
partner of Fisher Brothers New York and chairman of the Board 
for the Intrepid Museum Foundation, amongst other 
responsibilities; and last General John Jumper, General, the 
U.S. Air Force, retired, who was the Chief of Staff of the Air 
Force from 2001 to 2005.
    I want to welcome all of you and thank you again for the 
work that you have done and the report entitled, Rebuilding our 
Trust, which is a significant piece of work, considering we 
only had about 43 or 45 days to do it.
    It is the policy of the subcommittee to swear you in before 
you testify, so I ask you to please stand and raise your right 
hands. If there is anybody else who is going to be asserting 
answers to any of your responses, I ask that they also stand 
and be sworn in.
    [Witnesses sworn.]
    Mr. Tierney. Note that the witnesses answered in the 
affirmative.
    I understand that one of two of you will be giving a single 
opening statement. I remind you that our opening statements are 
generally about 5 minutes. We won't hold you exactly to that 
line, but if you would summarize it to 5 minutes then we will 
have more time to ask questions and elicit as many responses as 
we can.
    Mr. Shays. Mr. Chairman, before we begin could I just 
insert in the record the statement of Tom Davis, who is 
visiting with family because of the horrific tragedy yesterday 
at the campus in Virginia. So he has a statement, and I would 
like to submit that for the record.
    Mr. Tierney. Without objection. Thank you.
    [The prepared statement of Hon. Tom Davis follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Secretary Marsh will start.

    STATEMENTS OF THE INDEPENDENT REVIEW GROUP CHAIRMEN AND 
   MEMBERS: TOGO D. WEST, JR., FORMER SECRETARY OF VETERANS 
 AFFAIRS AND FORMER SECRETARY OF THE ARMY; JACK MARSH, FORMER 
  SECRETARY OF THE ARMY; ARNOLD FISHER, SENIOR PARTNER FISHER 
 BROTHERS NEW YORK AND CHAIRMAN OF THE BOARD FOR THE INTREPID 
MUSEUM FOUNDATION; LAWRENCE HOLLAND, SENIOR ENLISTED ADVISOR TO 
THE SECRETARY OF DEFENSE FOR RESERVE AFFAIRS; CHARLES ``CHIP'' 
  ROADMAN, FORMER AIR FORCE SURGEON GENERAL; AND GENERAL JOHN 
                             JUMPER

                 STATEMENT OF TOGO G. WEST, JR.

    Mr. West. There are two of us that will give statements, 
but we will meet your 5 minute requirements.
    Mr. Tierney. I have read your statements. I think you can 
do it. If you have to go over, go right ahead.
    Mr. West. Thank you.
    I would like to add that seated immediately behind us in 
the first row is Rear Admiral retired Kathy Martin, former 
Deputy Surgeon General of the U.S. Navy and a member of our 
panel. She stood for the swearing in.
    Mr. Chairman, members of the committee, let me offer just a 
few comments with respect to our report and to what we at the 
IRG did.
    Walter Reed Army Medical Center bears the most 
distinguished name in American military medicine. It and its 
colleague to the north, the National Medical Center at 
Bethesda, set the standard for DOD medicine. Our review 
suggests, however, that, although Walter Reed's rich tradition 
of flawlessly rendered medical care of the highest quality, as 
you have pointed out, remains unchallenged, its highly prized 
reputation has, nonetheless, been justifiably but not 
irretrievably called into question in other respects. Fractures 
in its continuum of care and support for its outpatient service 
members have been reported and are being reviewed. We have 
reviewed them.
    Failures of leadership virtually incomprehensible, in 
attention to maintenance of non-medical facilities, and a 
reportedly almost palpable disdain for the necessity of 
continuing support for patients and their families have led the 
growing list of indictments against this once and still proud 
medical facility.
    Our recommendations cover a wide range. I have tried to 
lump them into four quick questions. Firstly, who are we as a 
country, as a military, as health care centers here in the 
Nation's Capital? Unfortunately, if one considers the reports 
you and we have received from service members and their 
families, we would conclude that we may be answering that 
question in ways that are not attractive to us as military 
services or as a Nation. We say much about ourselves by the 
attitudes we display toward those who look to this Nation for 
support at their most vulnerable time.
    A number of findings and recommendations involving the 
assigning and training of case workers, increases in the 
numbers of case workers, adjustment of the case-worker-to-
patient ratio, assignments of primary care physicians, and 
attention to the nursing shortages consequently have been 
included in our report.
    Second, who are we and what are we to become? The base 
realignment and closure process and the A-76 process have 
caused incalculable dislocations in Walter Reed operations, and 
they threaten the future of both installations.
    We concluded that BRAC should proceed for a host of 
reasons, but we also concluded that the transition process is 
lacking, important coordinating efforts between the two 
installations need to be improved, and increased pace for the 
transition is urgently needed.
    Third, how are our service members doing? At every turn we 
encountered service members, families, professionals, 
thoughtful observers who pointed out the impact of TBI, 
traumatic brain injury, and PTSD, post traumatic stress 
disorder, and how challenging they have become, challenging in 
terms of DOD and Department of Veterans Affairs diagnosis, 
evaluation, and treatment, challenging in terms of the ability 
of our system to respond to them.
    We offer detailed recommendations with respect to both a 
center of excellence for the treatment, research, and education 
with respect to these challenges, and increased attention to 
cooperative efforts by both Cabinet departments.
    And finally, fourth, how long? The IRG has operated with 
what is, for me, a rare sense of unity and cooperation for 
organizations of this sort. But if there is one thing that we 
are most unified on, it is the need to put the horrors that are 
inflicted upon our service members and their families in the 
name of disability review and determinations, bring those 
horrors to an end.
    So our recommendations are several, but our thrust is one, 
and that is that the process needs to become one single 
process.
    It is no surprise to you nor to us that Government and its 
various parts can offer rationalizations, good ones, in fact 
let me say reasonable arguments as to why each part of that 
process needs to be reserved for a specific purpose, but we are 
a Nation that values the sense of common Americans. We call it 
common sense, and common sense tells us that, from the patients 
and the service member and the families' point of view, it is 
an incredible maze.
    Thus, virtually every finding leads back to those four 
things: leadership and attitude; the transition from Walter 
Reed Army Medical Center to Walter Reed National Military 
Medication Center; the extraordinary use of IEDs--improvised 
explosive devices--and the current wars in the current two 
areas of conflict, and their impacts on the brains and psyches 
of our service members; and the longstanding and seemingly in 
tractable problem of reforming the disability review process.
    To be sure, it was the degradation of facilities that first 
caught the eye of media reporters, but that is not our bottom 
line at the Independent Review Group. That bottom line is this: 
we are the United States of America. These are our sons and 
daughters, our brothers and sisters, uncles, and an occasional 
grandparent or two. We can and must do better.
    Thank you.

                    STATEMENT OF JACK MARSH

    Mr. Marsh. Mr. Chairman, thank you for conducting this 
hearing. It is very, very important. All of the departments, 
all of the services have been extremely cooperative in 
assisting us in this review, and members of our panel are very 
outstanding resource people, and some of your questions really 
should go to them, because they have backgrounds in medicine 
and hospital management and areas that we do not have.
    So we have had great experience and help from the 
Department, and I would tell you that under the leadership of 
the new commander at Walter Reed, General Schoomaker, who is 
here, and the new Acting Surgeon General, Gale Pollack, I think 
you are going to see some real progress.
    But, by way of background, I am a veteran of World War II, 
served and retired as a National Guard officer in the Virginia 
Guard, former Member of the U.S. Congress from Virginia. Both 
of our sons were called to active duty and took part in combat 
operation in the Persian Gulf. Our oldest son, a doctor, was a 
surgeon for the Delta Force, and was severely wounded in 
Mogadishu, but it gave us an insight to what families must go 
through in these circumstances and how important it is.
    We also saw the magnificent medical care that our son 
received, and also I am eternally grateful to the U.S. Air 
Force for the airlift capabilities that they have. Go down to 
Andrews some evening when one of the cargo flights carrying 
people come in these litters and you will come away with an 
enormous admiration and respect for our medical community and 
the Air Force.
    I make a point of that because I believe there is a part of 
the American ethic, and that American ethic is that America 
takes care of its wounded. I knew that when I was in the 
service, myself, I have seen it since, and I observed it, as 
did Togo when he was Secretary of the Army. Incidentally, he 
brought to our panel an enormous capability in his background 
with the Veterans Administration. Veterans Affairs has been 
exemplary and very, very helpful.
    You are focusing on families, and I encourage you to do 
that, not just to the active, but focus on the Guard and 
Reserve. Their family support systems are different, and it 
also imposes different requirements.
    It has been said that at Walter Reed it was a confluence of 
circumstances that became the Perfect Storm. The combination of 
A-76, the requirement to contract out some 300 plus jobs, it 
took over 5 years to address. So we had not only A-76, you had 
the BRAC. Then you had enormous increase of the number of 
casualties. So it came into a confluence in a way that was very 
difficult to deal with.
    There are problems that you have identified and which you 
hear on the disability evaluation system. The standards are not 
clear inside the Army, and they are not clear between the Army 
and the Air Force or with the Navy or with the Department of 
Defense. The medical community in many areas is in a sea of 
bureaucracy and red tape that is creating enormous problems for 
these service people. If you want to move quickly, move there. 
Look at that red tape, the bureaucracy.
    There is beginning to develop problems in recruiting for 
the medical community. I would suggest you also look at 
amending the statute that permits the recruitment of doctors 
who are over 50 but do not impose on them the 8 year obligation 
rule. It is a rare opportunity to avail yourselves and the 
armed services of the kind of medical attention they need and 
deserve.
    Now, finally, as a Member of the Congress at one time I am 
aware that only the Congress of the United States can fix and 
address the real systemic problems that we are looking at here. 
I suspect that the systemic problems that have been evidenced 
at Walter Reed you are going to find evidenced in other places. 
It was not our task to look at those, but I think they were 
there.
    But the Congress has the constitutional authorities, 
article 1, section 8, to raise the Army's and Navy's and to 
provide and maintain their support. Please, I beg of you, have 
the commitment and the perseverance to see through that 
legislative challenge. It will not be easy, but it is vital to 
our country and it is vital to those who bear the brunt of war 
and who are wounded in doing that.
    Thank you for addressing this issue.
    [The prepared statement of Messrs. West and Marsh follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you both very much for those opening 
statements.
    We are going to proceed to the question period under the 5-
minute rule. I am going to begin. I suggest that whoever feels 
best qualified to answer the questions so select down there on 
that, or I will leave it to the spokesperson if you want on 
that.
    I noted under both your comments on that and in page 6 of 
your testimonies that you recommend one combined physical 
disability review process. That is the crux of much of what we 
are talking about for both the Department of Defense and the 
Veterans Administration.
    To whom should we look to be held responsible to make sure 
that gets done?
    Mr. West. My recommendation, Mr. Chairman, are the 
Secretaries of Defense and the Secretaries of Veterans Affairs. 
They have the rulemaking authority for their two Departments 
and can probably solve that. To the extent that it requires any 
legislative adjustments, then, of course, that is your 
bailiwick.
    Just one example. In the Department of Defense, if you are 
a member of the Army and you are eventually going to end up 
leaving the service because of medical difficulties you have 
encountered, the wounds, whatever, you can face four boards to 
consider your physical evaluation, your disability, before you 
even get to the VA. That is because there is one that 
determines whether you will remain in your MOS. Well, that is 
four including the VA. One determines your MOS. Then there is 
the medical evaluation, the physical evaluation, and then, of 
course, there is the DAV's Board. When you look at the larger 
picture, they are all deciding two issues: one, will you have 
to leave your current duty, and, if so, under what 
circumstances.
    Now, I understand that there are many analyses that can 
show the other different aspects, but that is what it boils 
down to, and for service members that is very difficult.
    Mr. Tierney. Thank you. I would assume, and you probably 
don't have to answer, that is going to work fine if the 
Department of Defense and Veterans Administration Secretaries 
understand that somebody at the White House wants an answer and 
wants to ride herd on this thing, so I accept your answer, I 
think it is excellent. They can suggest legislation to us. They 
can make the rule changes on that.
    But I would just add the caveat that I assume that this 
only works if somebody at the White House is making sure that 
both those Secretaries know that somebody has to answer the 
bell and get that work done. It is not going to be enough to 
swallow, it is not going to be enough to do it in silos; it has 
to be a cooperation.
    Mr. West. Yes, sir.
    Mr. Tierney. What is the estimated time that we should be 
looking for them to complete this implementation? I think it is 
going to be a large task on that, but not one that we can let 
linger, so this committee likes to set time lines for continued 
hearings to sort of keep the process going here. What would be 
a reasonable time for us to expect those Secretaries to have 
that done?
    General Roadman. Mr. Chairman, I am Chip Roadman. I am a 
former Surgeon General of the Air Force.
    I think re-engineering the system, putting it at a year is 
probably a reasonable issue. Common sense would say but there 
are going to be people who are going through this system for 
the next year. Actually, one of our recommendations was that 
every one of the disability determinations, from 0, 10, 20, 
less than 30, from 2001 to the present should be re-evaluated 
to be sure that there is consistency and that there is fairness 
in the decisions, in addition to all those that were discharged 
under the existing prior to service.
    Mr. Tierney. That is what you would do in the interim?
    General Roadman. That is what I would do in the interim.
    Mr. Tierney. And you would have one group do all that 
evaluation?
    General Roadman. Yes, sir.
    Mr. Tierney. Who would that be?
    General Roadman. I think that a group of people who really 
understand the clinical issues, as well as the rehabilitative 
issues that our servicemen have to undergo should be appointed 
to do that.
    Mr. Tierney. And that would be for both the VA and for the 
DOD?
    General Roadman. It probably would be, sir, but it would be 
a significant group of clinical records to review and is a 
mammoth task but should be done.
    Mr. Tierney. Thank you.
    General Jumper. Mr. Chairman, if I could just add, for one 
moment.
    General Jumper. At some point during this continuum of 
care, which is what we call it in the Corps, unbeknownst or 
unannounced to the wounded soldier or Marine the system turns 
from one of tremendous advocacy, and you have heard the 
testimony about getting people off the battlefield and into 
primary care in record time, performing virtual miracles 
keeping people alive, but at some point this continuum of care 
turns from one of advocacy, profound advocacy, into an 
adversarial process.
    The point of view of this single process needs to be from 
the point of view of the wounded warrior and not from the point 
of view of the bureaucracies that look down on the wounded 
warrior and make the processes more comfortable for themselves. 
It has to be that of the warrior, and be able to streamline, 
from the point of view of the soldier, Marine, airman, sailor, 
the expeditious way through this process. That is the point of 
view that has to be taken.
    Mr. Tierney. Thank you.
    I notice that the yellow light is on. I am going to move 
on. We may come back for a second round on this, so I don't 
want to keep any of our other Members from that.
    Dan.
    Mr. Burton. Thank you, Mr. Chairman.
    You mentioned the wounded warrior. I had a young man from 
my District who was severely wounded, and he went to Walter 
Reed and received very good treatment. He went back home and he 
has to come back for additional treatment on a regular basis, 
but one of the things, he is still on active duty, and so he 
was being required, even though he was almost completely blind, 
to come back and stand with his company on a regular basis.
    Now, I called out there and talked to the company commander 
and he said, well, we will try to arrange for him to stand with 
a company in Indianapolis so he and his wife don't have to get 
on a plane and come out here and stand for just a few hours and 
then go back. I just wonder if any other personnel are 
experiencing that, because it doesn't seem logical to me, if 
somebody is severely injured, they have been treated at Walter 
Reed, to go home and, unless they are coming back for 
treatment, come back and forth and back and forth just to stand 
with their company when they are called out for regular order. 
It doesn't make any sense.
    I just wondered if that was addressed at all by this. I 
mean, it is something that is not necessarily directly 
connected, but it seems to me something that is very important.
    You talk about treating the wounded warrior very well. This 
is one of the things that should be done. They ought to take 
into consideration not only his condition and what they have to 
do to make him whole, or whole as much as possible, but also 
try to make it as convenient for him as possible to get to and 
from and do the duties that he has to do while he is still on 
active duty.
    Major Holland. Sir, it is very much appreciated for you to 
bring that up, because, as the NCO on this group, non-
commissioned officer, it is my job to look out for those folks. 
I have to tell you some of the things you will hear as we try 
to get our wounded warriors back to their units and back in 
formations at times. Secretary West brought up the idea of 
using common sense. Somehow we have lost some common sense. 
That is not the way we should be treating these wounded 
warriors that are on very strong medication.
    Now, yes, we do need to keep accountability of them, we 
need to keep track of them. No doubt about that. For PTSD, TBI, 
we need to do even a better job, sir, of keeping track of them.
    Mr. Burton. Well, in this age of computers and the way we 
keep track of almost everybody any more, it doesn't seem to me 
very difficult to say to a wounded veteran, you can go to a 
unit in Indianapolis to make sure that your attendance is 
shown. But this guy is almost 90 percent blind, and for him to 
come back to Washington requires his wife to come with him, 
they have to get a place to stay, then they have to go to his 
unit, then they have to go back to Indianapolis or back to the 
district. He is outside of Indianapolis. That didn't make 
sense.
    Major Holland. Sir, one thing to add to that if you will, 
that individual may look at community-based health care, 
because we have CBHCOs in a lot of the areas that they can go 
under.
    Mr. Burton. Well, in his case he still requires treatment 
at Walter Reed, and he has been getting good treatment. The 
problem I am talking about is this unnecessary travel.
    Major Holland. Yes, sir.
    Mr. Burton. And I hope you will look into that for others, 
because this is probably not an isolated case.
    One of the things that I noticed in your report, it says 
``Create a recruiting and compensation plan including a review 
of the military service obligation should be pursued to address 
health care professional staffing shortages.'' I had a 
conference yesterday and had about 400 veterans there in 
Indianapolis, and we talked about Walter Reed, and Bethesda. We 
talked particularly about the treatment at Roudebush Hospital 
in Indianapolis and the hospitals at Fort Wayne and in Marion, 
IN, and one of the problems they talked about was getting 
treatment in a relatively quick fashion when they needed it, 
among other things.
    I noticed here you were talking about having a problem in 
attracting health care professional and staffers, people on 
staff. Do you need more money for that? Is it a logistical 
problem? What kind of a problem are we talking about here?
    General Roadman. Sir, I'm Chip Roadman. The money is an 
indirect issue, and that is you have to have the ability to 
hire. In other words, if you have the money but it is not 
competitive in the marketplace and you can't hire, then that is 
essentially not having the money.
    Mr. Burton. If I might interrupt, I apologize for this. It 
seems to me in time of war, when we have young men and women 
coming back who are suffering severe injury, that whatever it 
takes to make sure we hire the best personnel possible, even 
for a short time, ought to be done. And if additional 
appropriations are needed for that, I hope somebody will tell 
us what is needed so that we can make sure that, if there is a 
shortage of nurses or doctors in a given field, we can cough up 
the additional funds to make sure they are there to take care 
of those guys.
    General Roadman. Of course, as you know from our report, we 
identify high expense marketplaces where, in fact, the pay 
grade needs to be higher in order to be able to hire people. 
But your basic point is almost as if you had been on our review 
panel, and that is: if you are at war, and our view in many 
ways is that our bureaucracies have remained at peace while the 
war fighters have remained at war, and so we see the processes 
and the ability to have other than business as usual as the way 
to get things solved is one of the inherent issues that we 
have.
    Now, if I might, you took the easy patient with the active 
duty patient without sight. You have to think in terms of, as 
we look out in the system, the Reservist, the Guardsman who is 
separated not with retirement and goes out into their local 
area, and it may be a very rural community where that health 
care is not available. In fact, our system disconnects from 
them and they are on their own.
    I think that there is a fundamental flaw in how we design 
our systems to take care of individuals wounded in war in that 
we have a lifetime obligation. It is the cost of war that I 
believe is there. There is a moral and a human cost, and it can 
be costed fiscally, as well, as a tail that has to be 
calculated in cost. When we put force on force, we need to be 
willing as a Nation to stand up and accept that.
    Mr. Tierney. The gentleman's time has expired. Thank you.
    Mr. Marsh. Mr. Burton, there are 94 nurse's vacancies at 
Walter Reed Hospital, and you can't fill them because they are 
not competitive because they are only permitted to pay in the 
pay scale directed by the Office of Personnel Management, which 
was set up in 1972. They have tried to give them some leeway, 
but it is so far below the going rates for nurses in the 
Washington area you can't fill the vacancies.
    Mr. Burton. Mr. Chairman, let me just say I know my time 
has expired.
    Mr. Tierney. It has.
    Mr. Burton. This is critical.
    Mr. Tierney. It is critical, and I would just ask the 
Secretaries, would we not expect the Secretaries to make a 
recommendation to Congress for adjustment of funding for just 
that purpose so we wouldn't be waiting here so many years later 
to catch up?
    Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman.
    I want to thank the members of the panel for your great 
work.
    There is a lot of discussion about the disability review 
process, that it is incredibly complicated, and you have 
addressed that. Professor Linda Bilmies from Harvard has made a 
recommendation to try to simplify that by doing something such 
that there would be a rating based on a scale, and you get a 
one, two, three, four, or five. You would make that 
determination. It would be a simple thing to do. Then the 
Department would audit these going back to see whether those 
determinations, in fact, were consistent with standards. That 
is the accountability.
    It makes a lot of sense to me. My question is whether it 
makes sense to you.
    I would maybe start with you, General, because I thought 
that the point that you made is really true. You go from 
advocacy to an adversary situation. To some extent that is 
endemic in the entire medical system, whether it is in the VA 
system or it is in the private health care system, because, no 
matter what, it is extraordinarily confusing, so finding some 
practical way to simplify and take the complexity out of it to 
me sounds like an excellent recommendation that you made, so I 
would be very interested in making improvements.
    General Jumper. Let me start, and then I will call on my 
colleague, Chip Roadman, who really dove into this.
    My observation is that this process could be extremely 
simplified, and I don't think it would take a lot of work. But 
when you get down into the regulations and the rules and you 
look at, for instance, the coding process that is required by 
these outdated regulations to be used for traumatic brain 
injuries, then you quickly get these people classified in a way 
that is completely out of step with what their true injury is. 
And it is all caused because the coding system, the 
deliberative coding system, has not been caught up to date, 
brought up to date. We are actually subject to printing cycles 
to update these regulations.
    One of the things that didn't get into the report that is, 
I think, badly needed is a way to update the medical community 
on some of the cutting edge things that are happening out 
there. At Bethesda there is a very forward-leaning diagnosis 
and treatment protocols that have been advanced for TBI, but it 
is not promulgated system-wide. We need something like, in my 
business, the FAA bulletins that are put out for aircraft 
discrepancies that are immediately put out to the community, 
adjudicated by a scholarly board that has authority over this 
and gets this out to the communities right away, something like 
that, along with a simplified rating process that you 
mentioned, sir.
    Mr. Welch. Thank you.
    General Jumper. Chip.
    General Roadman. Yes, sir. I think what you are describing 
is an occupational medicine approach to if you lose a hand you 
are compensated X amount of money, and that is a civilian type 
of a model.
    That clearly is easy to implement. The real problem comes 
down to we took Johnny out of his community and we returned him 
not in the same condition that we got him, and he is no longer 
able to do the occupation that he was trained for.
    Mr. Welch. Yes.
    General Roadman. And so if you are actually discharged or 
don't get a retirement, you are not eligible for the health 
care. You get a severance pay, and that generally is not a 
livable allowance. So there is an issue with how well 
compensated the warrior is as he comes back into his community.
    We said the real measure of success was that if his mother 
thought he was treated fairly, that probably we hit the mark. 
That is hard to put into bureaucratic measurable programmatic 
terms.
    The issue that we have been talking about on coding is one 
where PTSD and mild traumatic brain injury seem to be signature 
injuries of this war. There is not an obvious civilian analog 
to this, in that brain damage that is seen in our emergency 
rooms every day is due to acceleration and deceleration 
injuries, coup contrecoup within the calvarium.
    The problem is that what we are seeing with TBI, mild and 
not penetrating head wound but mild, is due to over-pressuring 
from a blast injury and is an invisible injury and, in fact, is 
hard to diagnose because it overlaps with PTSD. They are in the 
area called attributable diseases, which you take symptoms 
rather than findings, and we are out beyond what we now 
clinically know, and we need a tremendous amount of research.
    Now, all of us are very quick to say we need quick 
research, at least getting to the 80 percent answer and not 
necessarily this grinding peer-reviewed type of scientific 
study that we have the answer 20 years from now and then have a 
cohort of wounded soldiers.
    So I think the issue is that we clearly need a way to track 
and identify. What General Jumper was taking about, in the 
civilian coding of medical records there are about 19 codes 
that could be mild TBI. If you put that through the ICD-9 codes 
and then you come back through the DSM-IV to try to actually 
finally--this is more technology than even I understand, so I 
hope you don't pin me down on this, but what happens is those 
come out as psychiatric disease rather than a neurologic 
injury. That is not what our scientists can do either 
retroactively or prospectively to define the cohort that we 
need to study to get the answers.
    So what we have found as we pulled the thread, it attaches 
to everything else.
    Mr. Tierney. Thank you. The gentleman's time has expired.
    Mr. Welch. Thank you.
    Mr. Tierney. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    I would like to ask you gentlemen your opinion about the 
need. First off, do you agree the challenge is primarily 
outpatient as opposed to inpatient? Second, I would like your 
opinion about what you think about an ombudsman, someone to 
just be assigned to the soldier for years, if necessary, at 
least in wherever location they are.
    Mr. West. Well, the answer to the first one is clearly yes. 
The problems are in the outpatient as that applies to Walter 
Reed and other areas. That is where we focused, that is where 
it arose. That is not to say that in our course of reviewing 
things we didn't come across some ways in which there could be 
other improvements, but the problem is in the treatment of the 
outpatient, the group that are going through rehabilitation and 
the process for the physical and medical evaluations, as well.
    Mr. Tierney. Is that agreed by all of you?
    Mr. Marsh. Yes.
    Mr. Fisher. Yes.
    Major Holland. Yes.
    General Roadman. Yes.
    Mr. Shays. Do you have an opinion as to why the system 
broke down? Or did the system never work properly when it 
involves outpatients?
    Mr. West. I think everybody on the panel--who wants to 
start?
    General Roadman. I will start on that. Health care 
generally is taught and oriented in an acute care inpatient 
setting. What we are talking about is rehabilitative care, 
which is fundamentally different from acute care. The only 
reason I think this came up is that the system was stressed by 
the volume of patients. The system will work today by bailing 
faster, but as you get more and more patients the system 
actually has to be fixed.
    There are three ways we need to look at health care: 
prevention, acute care, and rehabilitation. Our job we are 
talking about now is taking Johnny back to his community able 
to re-engage in life, and that is different from the acute care 
that we normally deliver.
    Mr. West. You raised a question of an ombudsman, Mr. Shays. 
I wonder if the Sergeant Major might say something on that.
    Major Holland. Sir, the service member certainly needs an 
advocate, but they need an advocate that is schooled enough to 
be able to help them walk through the mine field that they have 
to walk through.
    Now, we talk about the ombudsman, but we also talked about 
the rating system. Let's make sure that no one gets service 
concern. The services still should have the ability to say 
whether or not I am fit for duty or not fit for duty. Once it 
is said that I am not fit for duty and I go in that other 
category, then I ought to go to the disability system, and that 
is where I really need an ombudsman.
    We talked about case workers. We talked about case 
managers. But with a load of 30 and 40 to 1 they are not given 
a good, positive situation.
    Earlier you brought up legal staff. Three legal folks at 
Walter Reed is unacceptable. I talked to the head of the JAG. 
They tell me that there are five Reservists, legal staff, 
coming in that will be there for the next year or two. We need 
certainly more advocates for the individuals to understand what 
their rights are and to make sure that they get treated fairly 
every day, sir.
    Mr. Shays. Thank you.
    If you would all describe to me the differences of what you 
saw at Walter Reed versus Bethesda.
    General Roadman. Sir, I am Chip Roadman. There was a 
significant difference between the two. Bethesda had 
reorganized their patient care as a team so that very holistic 
health care was delivered per individual. In other words, if 
someone had an orthopedic injury and a soft tissue injury, they 
didn't have to go to two physicians at Bethesda. They had a 
team approach to that. At Walter Reed what we found was that 
the disease were treated by organ systems, primarily, 
sequentially rather than in parallel. We made that point in the 
report, saying that was one of the really best practices that 
we had seen.
    Mr. West. There are some other differences that come out. 
First of all, of course, the numbers at Walter Reed exceed 
those at Bethesda. What that means then is that when you are 
talking about folks who can function as an ombudsman for, say, 
service members and families, Bethesda had theirs covered. The 
Marines who are there are well helped in making their way 
through the process and also through the regulatory procedures. 
That wasn't happening at Walter Reed. That is the impact of the 
ratio to case worker, the ratio of patient to those who can 
help them through the process.
    The Marines take their folks the minute they get off the 
plane, in fact perhaps even before the plane that comes in, and 
has someone assigned to be responsible for that serviceman 
through the whole process, all the way back to their wounded 
warrior barracks on either coast. The Army folks at Walter Reed 
just don't have enough people to see that that happens.
    Now, in some cases it does. Special Forces are there from 
the beginning to sort of follow their people. But the fact is 
numbers can make a difference and did make a difference there.
    There are some other things. The Navy does its facilities 
maintenance at Bethesda much better than the Army does it at 
Walter Reed. Now, is that a service tradition that the Army 
fighting in worse conditions somehow lives in worse conditions? 
Even if it is, it is no way to treat the wounded. But the point 
is you can notice those distinctions, and they make a 
difference in what service members and their families 
experience at those two facilities.
    Mr. Shays. Thank you very much.
    Mr. Tierney. Thank you very much. The gentleman's time has 
expired.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I would also like to thank the panel for their work and 
their testimony, and I would particularly like to commend 
General Jumper on your comments about the nature of the 
relationship toward the soldier throughout the system. I think 
we can all agree that the focus ought to be on the soldier's 
welfare from beginning to end.
    I have a question about resources. During the initial 
hearing we had, I and others on the committee continued to ask 
those in charge at Walter Reed whether resources, namely 
financial resources, were part of the problem, and they kept 
saying no, no, no, which I don't think that made sense to many 
of us because there was so much implied argument to the 
contrary.
    I know you have mentioned in your report that resources 
were contributing, a lack of resources contributed to the 
problem, so I would like you to comment on, first of all, the 
notion of the efficiency wedge, what that is, because I know 
that was mentioned in your report, and how this might have 
adversely affected care, and also why you think there was 
denial of the fact that resources were part of the problem.
    Mr. Marsh. Mr. Congressman, the resource methodology is 
very difficult to understand for the medical community in the 
Department of Defense. It has undergone a very significant 
change some time in the last 15 or so years, where the funding 
is taken out of the service, either Army or Navy or Air Force, 
and is moved up to Defense Health Affairs, and then the funding 
will be allocated at the Defense level without review or input 
at the Secretariat level of the three services.
    I think some of this is done because it is thought to be 
more effective, but I am not sure it is working out here in the 
time of war.
    Out of this comes what are called wedges, and either 
Admiral Martin behind me or General Roadman can tell you 
better, but the wedges come down to the service. They may tell 
the Army medical community your wedge is $42 million, which 
means that you have to find that $42 million in your whole 
total community and the answer is you will find it in 
efficiencies. You often can't find it. And the last wedge I 
think that came down I think was $142 million, and I believe 
the Surgeon General indicated there was no way he could execute 
that. In the previous wedge, to protect Walter Reed, they kept 
them out of the wedge. The wedge means a wedge into your 
medical budget that comes back up to Health Affairs.
    Chip, do you want to speak to that?
    General Roadman. Yes, sir. Chip Roadman.
    The wedge is a formula applied to workload that is 
retrospective. As your workload goes down, it is assumed that 
your costs go down in a formula relationship. I call that the 
death spiral of health care, because as we mobilize critical 
skills and send them into the theater of combat, those skills 
are no longer available within the treatment facilities at 
home, and the workload of course will go down. The problem with 
that logic as you extend that out is you ultimately end up with 
only a deployable medical force with everything else being 
bought in the civilian sector. I don't think that is where we 
need to be going as a military health care system.
    You know, I hate to give you a flip answer, but the 
efficiency wedge is a death spiral.
    Mr. West. Sir, it can also be very misleading, Congressman. 
Having overseen two Departments, I can tell you that the wedge 
goes in and you are given inducements to meet it. You meet it 
or you don't, but if you meet it, having accepted essentially 
that percentage cut in your budget, you are rewarded by having 
the budget the next fiscal year set at that level with a new 
wedge.
    General Jumper. Sir, may I add there is also a stealthy 
dimension to this as far as resources go. A lot of the 
resources that are put against the immediate problem, for 
instance, at Walter Reed, come from other areas of the budget, 
the line of the Army that come in there to do and pick up some 
of the slack that was identified in the Washington Post and 
other places. Eventually, those functional areas from which 
those resources came--that is money and people--will be asked 
to go back to those functional areas. Unless they are 
institutionalized, they stand a good chance of evaporating when 
the immediate crisis evaporates. That gets to the 
recommendations in our report that talk to institutionalizing 
and some strong oversight to implementing the measures that are 
written in the report.
    Mr. Tierney. Thank you. The gentleman's time has expired.
    Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman.
    I want to also thank the panel for your good work on this.
    I have two areas of questions. The first concerns the 
office of the ombudsman. I asked my office to send me some 
information just to check. I want to make sure that the panel 
is aware that Congress recently passed the Wounded Warrior 
Assistance Act of 2007, and I have not matched up what we 
passed with your recommendations, but I would urge you to take 
a look at that. I don't know how the timing worked with your 
study and that act, but I think we really probably need to take 
a look at that in light of your recommendations, and any help 
or guidance you could provide Congress on that I think would be 
helpful.
    One of the things that the act did was it set up an office 
of an ombudsman in the Department of Defense. Section 102 of 
the act sets up an overall office to coordinate, as I read it, 
other offices of ombudsmen in the various military divisions.
    I am hearing that, while the Navy and the Marines have done 
a pretty good job with somebody, some office, some way to 
coordinate all the benefits, care, and services that may be 
available to the wounded warriors on that side, the Army has 
not. So one of the things it sounds like we need to look at is 
making sure that there is specifically an office of the 
ombudsman, and perhaps at each medical facility, whose duty is 
to the soldier and their family, not to the armed services so 
much but to the soldier and their family, their duty runs to 
them to help them coordinate what they are going to have to go 
through. Is that, as a concept, something that you agree with?
    Mr. West. Mr. Hodes, the answer is yes. I think that 
Command Sergeant Major Holland has already indicated, and his 
indications are certainly those of the panel.
    In fairness to the Army and to Walter Reed, much has 
changed since we did our review, and they have, in fact, 
addressed the case worker issue, the imbalance, reworked the 
numbers, and so you will hear, I think that they have made an 
effort to address it.
    Whether the case worker does what the act requires is 
another matter to be looked at. Certainly from our perspective 
the need for some advocate who can help guide individual 
service members and their families through that time when the 
service member cannot be expected to be thinking clearly, when 
the family is tormented by anguish and concern, is one that we 
think the Army is trying to meet, but certainly what you have 
mentioned in the act also seems a way to be helpful.
    Mr. Hodes. My concern is amplified by a meeting I had with 
a constituent at home recently. I met with the soldier and his 
wife who was at Walter Reed. He described a similar story to 
that which we heard when we were there for testimony, you know, 
having to navigate 14 different signatures to have somebody say 
what he already had been told, which is he is blind in one eye, 
half blind in the other, his arm is busted in 13 places; having 
to show up for formation when he could hardly stand, with 
nobody to go to to help him, a case manager who seemed more 
interested in telling him what he didn't need than what he did. 
So my concern is very personal to me with that constituent.
    The second question is perhaps briefer. General Jumper, I 
listened with interest when you talked about essentially an 
attitude issue. The same constituent that I met with described 
a suck it up soldier attitude to what he was dealing with. I 
don't think you can legislate attitude. How are we going to 
change the mind set from suck it up soldier to these are 
wounded patient soldiers who need our care? How are we going to 
change that attitude, because I don't think we can pass an act 
that would do it.
    General Jumper. Sir, I think that is a very good question. 
Indeed, it is the tradition of all of our military services to, 
as you say, suck it up. That is the way we look at things. I 
don't think the American people would want it any other way.
    However, when you transition yourself into this sort of an 
environment where you now involve families and loved ones, and, 
indeed, in a process where the families and loved ones are 
necessary to be able to coordinate all of the activities of our 
more severely wounded warriors, then that is when compassion 
has to take over for a little of the suck it up attitude.
    I think everybody agrees with that. I think everybody 
agrees that it was probably a bit overboard in that direction. 
I know that the commanders that we have talked to have 
instituted steps to correct that, to pay more attention to the 
families and to the loved ones.
    Mr. Tierney. I thank the gentleman. His time has expired.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    Quite frankly, General, telling a patient suffering from 
post traumatic stress disorder or traumatic brain injury to 
suck it up is counterproductive. Isn't that correct?
    General Jumper. Yes, sir.
    Mr. Braley. And one of the problems that we have sitting up 
here is that when we had our first hearing at Walter Reed on 
March 5th I asked General Schoomaker, General Cody, and the 
Acting Secretary Garon if any of them could tell me how many 
patient advocates were serving the patient population at Walter 
Reed, because the Post article indicated not only were case 
managers being added to the population, but also patient 
advocates. You know what they told me? None of them could 
answer the question.
    I made a request at the end of that questioning for a 
clarification on what the number of patient advocates were, 
because it is contained in the Wounded Warrior Assistance Act. 
It is contained in your independent review. And nobody has 
answered my question. So when you want to talk about the 
frustration of inaction, it is on both sides of the table here.
    One of the things that we have to do is get back to the 
point of view you talked about. One of the recommendations you 
made in your report has to do with employment assurances. My 
brother works at the VA Hospital in Knoxville, IA, which has 
been on a yo-yo for 10 years on whether they are going to close 
the largest VA hospital in Iowa, spend $260 million of new 
facilities management and move them to Des Moines, and they are 
losing their best employees who are going to other VA 
facilities around the country because no one is giving them 
that assurance. This is an endemic institutional problem that 
has to change, and you have to be the voice to make it change, 
because, quite frankly, we are not getting a lot of answers on 
this end.
    One of the things that I think that is very important is 
you raised the point, General Roadman, about what is the cost 
of war. You have talked in your report about the advancements 
in medical care that are changing many former fatalities into 
wounded warriors with injuries that are, frankly, going to cost 
us staggering sums if we invest the money we should to take 
care of them.
    If you look at a life care plan for somebody with a 
traumatic brain injury or PTSD, the average life expectancy of 
a 19 year old male, according to the U.S. life tables, is 57 
years. You cost that out. It is a lot more than your $100,000 
DOD death benefit. Yet, we are not getting any information from 
the administration on what the long-term consequences of health 
care are for the casualties of this war. You have to use your 
platform to be an advocate for that, because that is a hidden 
cost that nobody is talking about.
    One of the things that was also frustrating to me is one of 
your recommendations deals with promoting education and 
research in prosthetic care, production, and amputee therapy, 
and we heard very compelling testimony about people with 
multiple amputations going back to active duty performing 
valuable functions as active duty personnel, and yet we know 
when we are dealing with the rampaging cost of long-term health 
care that if we want them to be active throughout that 57 year 
life expectancy and not be a burden on our health care system, 
we have to invest in the type of prosthetic care that keep them 
active and functioning. Yet, if you look at those DOD 
reimbursement schedules, they provide initial prosthetic care 
and then they are left to fend for themselves.
    So what I want to emphasize is your value to this country 
in keeping this topic front and center, because we can have 
hearings until hell freezes over, we can pass the assistance 
act, but unless the military and Department of Defense do 
something to act on their recommendations nothing is going to 
change.
    Female Speaker. What if you stop funding war?
    Mr. Tierney. Excuse me 1 second. The witness will suspend, 
please. We have been more than, I think, lenient with what is 
going on here. Now I am going to ask that you sit down and not 
disrupt the room. As long as you are quiet and you don't 
disrupt other people and you don't get in the way with their 
hearing of this witness, this hearing, we are perfectly fine. 
There are people sitting behind you who want to watch the 
proceedings, people who want to listen to it, so I ask you to 
keep your comments to yourself, keep in your seat, and you will 
be just fine.
    Otherwise, we want to be respectful of what is going on 
here, about the people who are returning from Afghanistan and 
Iraq that we all have great concern for, including you. We 
appreciate that concern. So please work with us. We have been 
as lenient as we could. Now we expect that you are going to 
stay seated and stay quiet. Thank you.
    The witness may proceed.
    Mr. Marsh. That was a very timely and powerful statement 
you just made.
    Let me mention something to you that I am afraid the 
Congress is going to overlook, because we had a tendency to 
overlook it. There are statutory differences between the 
National Guard and the Reserves and the active force. Those 
statutory differences, unless they are identified, in the 
process of treating the wounded can have some very significant 
consequences.
    For example, if the National Guard or Reservist soldier 
goes off of active duty when he returns home with his unit, if 
he goes back to his unit and is mustered out, his chances of 
being able to get back into the system are extraordinarily 
difficult and very hard for him to achieve. I don't think that 
Congress is looking enough at these two very important 
distinctions in the service. And there is a difference between 
Reservist and Guard, too. But the point you make I'm sure was 
not lost on all these military people sitting here behind me, 
but you are quite correct.
    General Roadman. Mr. Braley, I absolutely agree with you on 
the hidden cost issue. After leaving active duty, I represented 
nursing homes and assisted living in the District here with the 
American Health Care Association, and I understand fully what 
the lifetime costs of rehabilitation care and care for people 
with chronic diseases are.
    We have had some interviews, and the question was, well, 
who do you think is going to pay for these recommendations? The 
panel generally has taken the position of actually that is not 
our problem to fix. Our problem is actually to point out the 
remaining gap for the people who serve our country, and we 
recognize the cost is immense and it is our moral obligation to 
address those issues. As we engage in force on force, recognize 
that it is not just bullets, it is not just weapons systems, it 
is also the tail programmatically of people who are wounded in 
defense of our country.
    I would like to add one thing quickly. We have talked about 
wounded warriors. One of the things that we have seen going 
from facility to facility is people saying, wait a minute. I 
have been injured and I am not a warrior. It wasn't in 
Afghanistan and it wasn't in Iraq. The fact of the matter is 
what we are talking about is service members, regardless of 
where they were wounded, they need the same standard of care, 
the same standard of access, and the same standard of respect 
and priority.
    I don't want us to fall into the trap of saying this is for 
``wounded warriors'' and therefore limited to particular 
operations. This is an all volunteer force. We have obligations 
to take care of them.
    Mr. Tierney. Thank you, General.
    The gentleman's time has expired.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair, and thank you, 
gentlemen.
    Mr. Marsh, you are right. We are not doing our Reservists 
and our Guards and our active duty members any favors by having 
compensation and everything being so jumbled and such a mess 
when they come home, because they all talk to one another, they 
all live in the same communities, they all served in 
Afghanistan, Bosnia, Iraq, with great honor. To come home and 
find out that they are treated differently when they worked and 
served and stood in harm's way is a huge, huge disservice to 
the sacrifice and the commitment that they and their families 
made, so thank you for pointing that out. I look forward to 
correcting those inequities, especially as our Guards in 
Minnesota have been now extended. The second wave just got 
extended an additional 4 months.
    My concern that I am coming with is the seamlessness 
between the DOD and the VA, and, where appropriate, maybe DOD 
people who would still be covered by DOD might be more 
appropriately receiving care in a VA facility. It should be 
seamless. It should function in a way that really takes care, 
puts the patient first.
    So I am concerned when I see that the focus on Walter Reed 
and Bethesda, which I think needs to be because of the current 
problems we had, but I think your panel needs to be looking at 
the VA system, the outreach that we have in community rural 
health services, how we take care of our soldiers when they 
come home and their homes need to be refitted in order to 
accommodate a wheelchair, accommodate a walker, accommodate 
kitchens so that they can be active not only in their 
communities but in their homes, which helps toward healing.
    So my question to you is going to be, what do we need to 
do--and I met with my county Veterans Service officers who are 
great, wonderful people, but they are all close to retirement. 
What are we going to do to make our Government live up to its 
obligations, to be advocates for families, to have case workers 
and ombudspeople, as well as county Veterans Service officers? 
They all have very separate roles.
    What I am concerned about, just as we have people mixing up 
what the Guards and the Reservists and what the regular service 
members are entitled to and people not understanding the 
differences in that and correcting it, I am also concerned 
about making sure that case workers are given their jobs to do, 
which are very different than what an ombudsperson does, very 
different than what a county Veterans Service officer would do. 
Who is going to track and provide that seamless integration 
between DOD and VA, and who is going to make sure that we have 
all the different layers of paraprofessionals available and 
that the ombudsperson truly is independent?
    Let me give you an example of where I think we are failing 
already. DOD has someone assigned to the VA hospital in 
Minnesota. VA system loves having that person there. DOD tries 
to keep someone there. That person rotates on an average of 
every 4 months. How do we, you know, have someone who 
understands the difference between the systems and really 
working with someone? Can you address the human need of making 
sure that we have DOD/VA be seamless in all the different 
levels of people who works with patients that aren't providing 
health care but access to health care?
    Mr. Marsh. He's the former Secretary of VA.
    Mr. West. Congresswoman McCollum, you are absolutely right. 
When you outlined the problem, you outlined a whole host of 
problems that need to be addressed, and that we in the panel 
got to some of them in terms of the seamlessness. We got to the 
question of the transfer of records back and forth, which is so 
extraordinarily important to our service members. We got to 
that question of what had to be looked at in terms of the 
physical disability review system.
    Some of the other issues, in fact, in 45 days we just 
didn't get to. There is a panel that comes after us. It is 
already started. I think you know of it, the one chaired by 
Senator Dole and Secretary Shalala, whose mandate is to look at 
precisely that interface and in its broadest context as well as 
in narrow ways.
    In terms of the DOD representation at the military 
locations, you know, even that small presence, that one person 
is something that is vitally important and that, frankly, a lot 
of advocates had to work hard to get. As with any agency, but 
especially with DOD, if there is one person there is a whole 
history of re-deployments and reassignments in their career. If 
it is a civilian person, then certainly they could stay longer.
    My point is you probably need more than one person, and you 
probably need it to work. You are certainly right that 3 
months, or whatever that period was, is not nearly as helpful 
as a year. Frankly, from DOD point of view and every other 
assignment I have ever heard of, you can't even get to know the 
territory in a year, at least 2 years.
    So you make a good point. We didn't address that. We did 
address the broader issue of seamlessness. And, of course, 
there is a panel to whom we just reported our findings on 
Saturday, the Presidential panel, that is going to look at that 
broader issue.
    Mr. Tierney. Thank you, Mr. Secretary.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Secretary West, Secretary Marsh, thank you for your 
leadership on this in co-chairing. Thank you to all the others 
who served on this panel, and for your prior service to our 
country, as well.
    I just have a few comments, and then a question.
    First, with respect to the role that the A-76 process 
played in your findings here, and you state in the report, 
``The A-76 process had a huge de-stabilizing impact on the 
civilian work force at Walter Reed Army Medical Center,'' and 
indicate that if the military had taken advantage of the waiver 
opportunities or didn't have to go through the A-76 process we 
would have avoided at least part of the problem where a lot of 
attention was focused on A-76, No. 1. No. 2, as a result of A-
76 there were lots of people who decided to leave Walter Reed.
    I only suggest that I think that problem is endemic not 
only to Walter Reed but to other Government agencies. AS 
someone who represents a congressional District right outside 
our Nation's Capital, I hear regularly from the heads of those 
agencies--and I include political appointees in that group--who 
say that this A-76 process has significantly compounded their 
management problems, the way it has been implemented, not that 
contracting out doesn't have an important role, I think it 
does, but the way it has been implemented in a fairly 
ideological fashion. So I think that recommendation can be 
generalized to other Government agencies, as well.
    With respect to BRAC, as you know, in terms of the BRAC 
process, you have entered into sort of a discussion that is 
going on in Congress. Some people have responded to the 
terrible situation with regard to the treatment of our soldiers 
at Walter Reed by saying we should not move forward at all with 
the BRAC process and the transfer. Others have suggested we 
should push the accelerator pedal and really accelerate it. In 
your recommendations, you say that you might even want to 
accelerate or waive the environmental impact statement.
    Now, Senator Warner, who is the ranking member on the Armed 
Services Committee, has said he doesn't want to short-circuit 
the process. I must say, given that part of the lessons at 
Walter Reed was the failure to plan in advance for the influx 
of wounded soldiers we would have, I would think that we would 
not want to short-circuit that planning process. I think in the 
long run it will cause more problems for the soldiers who are 
being treated, as well as the people who have to provide the 
care, if you rush into a situation without adequate planning, 
including the environmental impact statements.
    Third, I know someone raised the issue of H.R. 1538, the 
Wounded Warriors. It has passed the House and is pending in the 
Senate. I am interested in your comments on that, whether you 
have had an opportunity to review it.
    Finally, I was at Bethesda Naval Hospital recently. It is 
in my District. Talking to Admiral Robinson there, he said one 
of the issues in discussion--and there is not really a meeting 
of the minds right now as part of this transfer--is this whole 
question of medical hold. It gets a little bit to Congresswoman 
McCollum's comments.
    At the Bethesda Naval Hospital they were pretty clear that 
they tried to push earlier for people to be returned to their 
communities and provide care through the veterans hospital 
system. This was an ongoing and quite pointed discussion even 
as we gather here today with respect to the merger between the 
two and the different philosophies. Given the fact that 
outpatient care and the medical hold system is clearly 
implicated as one of the real problems here, I am curious as to 
your view of how to resolve that debate.
    Mr. Fisher. I am Arnold Fisher. I would like to address the 
point about the BRAC Commission that 2 years ago decided to 
close Walter Reed. It is like moving out of your house before 
you buy a new one. There is no reason why the addition to 
Bethesda on the third floor, which would create 50 new ICU 
rooms, can't be done yesterday. I don't understand. We don't 
need an EIS. You don't need any approvals. You have to have 
plans made and you need to build it. I still to this point do 
not understand why that has not been started now.
    My problem with all of this is that the one word that has 
been mentioned a few times today but is not addressed when it 
comes to fixing Bethesda is that we are at war. This is not 
peacetime. This is not a time where we can go through 13 months 
of EIS approval or to go through 16 months of an architectural 
and engineering plan. We are at war. We have to address this 
now. In Vietnam we had three wounded to every dead. We now have 
16 to every death coming back. We need to take care of them. We 
need to have the facility for them. We can't sit around and 
wait like we would in peacetime and do it in 2 or 3 years.
    As far as the EIS is concerned, it is Government land. 
Waive it. Waive it. I know that the environmentalists will kick 
and scream, but they are not going to scream and kick as much 
as these kids that are coming back without arms and legs. They 
can bring them in. We can satisfy them. This is a golf course 
we are talking about. You don't have to knock anything down. 
You can start it. You should start it now, not wait for 13 
months for this approval. We should start Bethesda now.
    These kids have not stopped coming back. The first day I 
was on this Commission, Secretary West and I went to Andrews 
Air Force Base and we watched a C-17 come in with eight 
stretchers on it. They come in every day except Thursday. These 
kids are coming back. They are being put in buses, taken to 
Walter Reed and Bethesda. Now, from battlefield to bed they get 
the greatest treatment in the world, but the rooms that they go 
into a 30 year old hospital are as big as closets. Their 
families cannot get in there to see them. This is wrong. We 
need to fix it and we don't need to fix it in 3 years, we need 
to fix it now. We don't have to wait 3 years.
    When I first got on this Commission and somebody came from 
BRAC and told us about the EIS and everything. I hit the 
ceiling. This is not right, and I want it changed.
    Mr. Van Hollen. Mr. Chairman, may I make a comment?
    Mr. Tierney. Certainly. Go ahead.
    Mr. Van Hollen. I am interested, as well, in an answer to 
the other question with respect to the medical hold, but if 
somebody told you that the reason--the BRAC Commission 
recommendation came recently. If someone told you that the 
reason it is being held up is as a result of the EIS, I can 
tell you they were giving you a story. That is not what has 
been holding it up.
    Now, what I want to know is if the Commission took a review 
of the entire BRAC recommendation process. My colleague here, 
and I am sure you will hear from her, Ms. Norton has pointed 
out that maybe, if, instead of moving Walter Reed, we spent the 
time investing in rehabilitating the facilities that you talked 
about, that you would get the result you talked about. So the 
issue is there are different ways. I am not going to weigh in 
to that particular controversy right now, but I don't know if 
your Commission reviewed in detail the BRAC recommendations and 
reached a conclusion as to whether or not their original 
recommendation was the most appropriate in terms of providing 
medical care.
    I happen to think they made a pretty good case, but I am 
not sure, during your review, I certainly don't see that 
analysis in this report, a thorough review of whether or not 
their original decision was right, given the circumstances we 
are facing right now.
    I think every member of this committee feels exactly like 
you do, that our priority has to be making sure that our people 
get care, the soldiers returning get the care that they need. I 
don't think any member of this committee is going to be second 
to anybody in maintaining that objective.
    So the question isn't whether, the question is what is the 
best way to do it, and it is not clear to me that your 
committee had the time or the resources to undertake a full 
review of the BRAC recommendations.
    Mr. West. Mr. Van Hollen, if I may?
    Mr. Van Hollen. Mr. Secretary, the time is expired but I 
would like you to respond to that.
    Mr. West. Thank you, Mr. Chairman.
    Mr. Van Hollen. Thank you.
    Mr. West. I will be brief. You are correct. We are not 
experts in BRAC. What we are experts in is urgency, the urgency 
of those who spoke to us, the urgency, as mentioned by Mr. 
Fisher, but we are not experts in BRAC and we realize that 
others may make, based on a better understanding, a different 
choice.
    I remember my colleague General Roadman mentioned a minute 
ago, he said something about cost. He said that is not our 
problem. Actually, they are our problems, but our mechanism for 
dealing with it is simply to make a recommendation based on 
what we have heard and had a chance to see. But you are right, 
we did not undertake a thorough study of the BRAC process. 
Others have.
    What we have to say is this: there has to be no 
deterioration of what is happening at Walter Reed as we go 
through whatever process goes through, because the key thing is 
the care for these youngsters. There has to be appropriate 
medical treatment and availability here, at Fort Belvoir, and 
at Bethesda in such a way as can accommodate that sense of 
urgency that we have.
    But no, we are not the BRAC experts, but we do not claim to 
be.
    Mr. Tierney. I thank the gentleman.
    Ms. Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. As a member 
of the full committee I appreciate the opportunity to sit in 
and question these witnesses. And I very much appreciate the 
candor of your report and how rapidly it was concluded.
    This committee is singularly interested, first, in 
stabilizing Walter Reed and other facilities, and then 
improving them. There is a tendency on this panel, particularly 
the last lecture that was given by my colleague, Mr. Van 
Hollen, the lecture to the tendency to conflate what, in fact, 
has come out of these hearings and out of the Washington Post 
stories, to conflate two issues: medical care and outpatient 
care. We are not going to allow that to happen here. We are not 
going to allow medical care to become a cover for the problem 
that the soldiers tell us is the problem they have.
    The House has not said that there should be no Walter Reed 
built in Bethesda, no new hospital. The House has said that it 
is inappropriate in the middle of a war to say that we are 
going to close a hospital and build a new one. Let me tell you 
why. We are aware that we are in the middle of a war. We are 
aware of the deficit that has been built up in the last 5 or 6 
years. Are you aware that nobody has appropriated the $2 
billion it will take to build a new Walter Reed?
    And if you are not, let me tell you this. If, after the 
testimony we have had here, the House were to come forward with 
a bill for $2 billion for bricks and mortar rather than putting 
that money into where the grievance is, in the outpatient 
system, there would be bipartisan fury, because we haven't had 
one complaint about the hospital.
    I have been into the hospital, sir. I have been into the 
rooms, and I don't recall any closets. I have talked to 
patients, as have many on our panel. What we have learned is 
over and over again now, not only Walter Reed but veterans' 
hospitals all across the country, we are inundated at not only 
veterans' hospitals, sir, but veterans' hospitals [sic]. We now 
have an outpouring of complaints because people now feel they 
can speak up.
    So we have a problem, we in the Congress. When we had our 
first hearing I asked the generals--there were four of them--I 
asked them a straight question, has the possibility of the 
closure of the hospital had any affect on retaining or 
attracting personnel. To the last general they said yes. If I 
can quote one of them, Army Vice Chief of Staff General Richard 
Cody--this is only one of the statements--``We are trying to 
get the best people to come here to work, and they know in 3 
years that this place will close down, and they are not sure 
whether they will be afforded the opportunity to move to the 
new Walter Reed National Military Center. That causes some 
issues.''
    Your answer apparently is to eliminate the environmental 
impact statement. If you think that is a problem for the 
environmentalists, I don't think you understand the Congress of 
the United States, or dispense with the A-76 process and hurry 
up the process.
    Let me ask you this: if you were in our position, the 
position of the U.S. Congress, faced with a war we have to fund 
no matter what happens, faced with the rebuilding Iraq that we 
have to do no matter what happens, faced with now chronic 
neglect of domestic issues and pressure from all of our 
constituents to get to it and to do something there, faced with 
a deficit that we are committed now to halting and breaking 
down, what would your priority be? I want the same kind of 
candor from you that your report shows. If you had a choice 
between spending the money on outpatient care and veterans' 
facilities, a new hospital, what would you advise the Congress 
to do?
    Mr. West. Congresswoman Norton, I will give a specific 
answer to the question you just asked. I would advise you to 
look at the facts that we have gathered, look at the facts that 
are available to you, look at the allegations of what is good 
there at Walter Reed and what is not, how the maintenance is, 
how the rooms are. Look at those facts. Look at the costing of 
the estimates of what is necessary to be done at Walter Reed to 
keep it going forward, remodeled, reinvigorated, the facilities 
fixed and the like. Compare those with the cost of moving to a 
new facility and doing that, and make a judgment on that basis.
    Ms. Norton. But the $2 billion hasn't even included the 
cost of equipment, just the cost of putting the bricks and 
mortar up.
    Mr. West. I have seen the costs. I have seen a cost workup 
that was done for another committee. I have looked at that. I 
tell you that is the way I would do it.
    What we are after is one thing, and one thing only: 
whatever resolution will get the best resolution of two things, 
one, a need for facilities in which the medical care can be 
delivered, but also the resolution of the rehabilitation, as 
well.
    Ms. Norton. Which is the problem before us. The problem 
before us is the outpatient care, I remind the panel.
    Mr. West. Right.
    Ms. Norton. The problem before us is not the care at Walter 
Reed Hospital. To the credit of the hospital, there has not 
been a single complaint I know of about the hospital. In fact, 
it remains the premiere military hospital on the planet.
    Mr. Marsh. Delegate Norton, if I could add to that--and I 
know that time is running short--from the standpoint of the 
Commission, we were tasked with a single task: look at the army 
medical services, particularly problems at Walter Reed, and, to 
a lesser extent at Bethesda, which are much, much less. What we 
were confronted with, I suspect maybe members of the 
Commission, if we had been voting on BRAC might have had a 
difference of view, and many might well have agreed with you.
    But we were confronted with a BRAC decision, had been 
accepted by the Congress of the United States, enacted into 
law, and signed by the President of the United States, so we 
had to deal with the situation. This is a matter of law and it 
has been directed by the Congress of the United States that we 
go forward with it, and so we made our recommendations that 
were consistent with that.
    Mr. Tierney. Thank you very much.
    I want to thank the members of the panel, as well as the 
Members here. I think it has been very helpful, and certainly 
the report that you did was very extremely helpful. We thank 
all of you, including Admiral Martin, who didn't get to sit at 
the table on that, but we do acknowledge her work and George 
Schwartz' work, as well. We have great admiration for the fact 
that you were able to get it done in such a short period of 
time and have it be so thorough with the significant respect 
also for the fact that you dedicated your time and energies to 
this. We know that you are all busy individuals in your own 
right, and it is a patriotic and great act of citizenship that 
you did this, and we thank you very, very much.
    That will end the testimony from the first witnesses. The 
second panel will please take the seats when you get a chance.
    Thank you, again.
    We will now hear testimony from the second panel of 
witnesses before us today. Thank you for your patience and 
thank you for taking the time to be here during the first 
panel's testimony. I think it would be helpful as we converse 
here.
    I would like to begin by introducing our panel. On this 
panel we have Mr. Michael Dominguez, the Principal Deputy Under 
Secretary of Defense for Personnel and Readiness; Major General 
Gale S. Pollack, the Acting Army Surgeon General and Commander 
of the U.S. Army Medical Command; and Major General Eric 
Schoomaker, Commander of the Walter Reed Army Medical Center.
    Welcome to all of you. Thank you for your service to your 
country and your willingness to be here today.
    It is the policy of the committee to swear you in before 
you testify, so I ask you to stand and raise your right hands. 
Anyone else who is also going to be responding to questions, if 
they would please rise, as well.
    [Witnesses sworn.]
    Mr. Tierney. May the record indicate that the witnesses 
answered in the affirmative.
    I am going to provide you the opportunity, if you would, to 
give a summary of your testimony. As you know, we provide about 
5 minutes for that. We would like you to try to stay within 
that, if you could, and summarize. Your statements will be put 
in full into the record, and then we would like some time to 
have a colloquy and some questions back and forth.
    Mr. Dominguez, perhaps you could start.

STATEMENTS OF DEPARTMENT OF DEFENSE AND ARMY OFFICIALS: MICHAEL 
   L. DOMINGUEZ, PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE 
 (PERSONNEL AND READINESS), U.S. DEPARTMENT OF DEFENSE; MAJOR 
  GENERAL GALE S. POLLACK, ARMY SURGEON GENERAL (ACTING) AND 
   COMMANDER, U.S. ARMY MEDICAL COMMAND (MEDCOM); AND MAJOR 
 GENERAL ERIC SCHOOMAKER, COMMANDER, WALTER REED ARMY MEDICAL 
                             CENTER

               STATEMENT OF MICHAEL L. DOMINGUEZ

    Mr. Dominguez. Thank you, Mr. Chairman, distinguished 
members of this subcommittee, thank you for this opportunity to 
discuss support and care for our wounded soldiers and their 
families.
    As you know, we have just received the draft report of the 
Independent Review Group established by the Secretary of 
Defense. We very much appreciate their work and their 
recommendations. We will be working to coordinate the 
Department's review of those recommendations for approval by 
Secretary of Defense Gates.
    We are currently staffing the recommendations of the 
Interagency Task Force chaired by Secretary Nicholson of the 
Veterans Affairs Department.
    I can't articulate a clear action plan in response to the 
Independent Review Group findings until our Departmental review 
is complete and the Secretary has directed action. I would note 
that the Department has not been waiting for the report to 
address matters of identified concern.
    For example, we have requested an adjustment to the fiscal 
year 2007 emergency supplemental to provide $50 million so that 
we can implement in this fiscal year improvements to support 
and care for the wounded.
    The Army has taken aggressive action to make improvements 
at Walter Reed. I defer to my colleagues at the table to 
address those actions.
    The Office of Personnel Management provided direct hire 
authority for over 100 patient care positions. As a result the 
Army made 125 job offers at a recent fair.
    Our first survey of wounded warriors and their families is 
being fielded this month, with results expected in June. We 
have been working through our Joint Executive Committee, with 
the leadership of the Department of Veterans Affairs, on 
improving the flow of electronic information and records 
between VA and DOD.
    I have described our efforts in my written statement.
    We are thoroughly engaged in seeking the correct 
configuration for our disability evaluation system. A joint 
team of DOD and VA leaders begins that redesign this afternoon. 
In addition, in partnership with the VA, we are preparing a 
comprehensive plan to address TBI. The goal is to coordinate 
our efforts into a comprehensive program of research, 
education, treatment, and program evaluation.
    We are supporting the President's Commission on Care for 
America's Returning Wounded Warriors, which is taking a 
comprehensive look at the full life cycle of treatment for 
wounded veterans returning from the battlefield. We expect 
their findings in June or July.
    In October we expect the report of the Veterans Disability 
Commission chaired by Lieutenant General Retired Terry Scott. 
This group was chartered by the National Defense Authorization 
Act of 2004.
    Correcting the fundamental issues underlying our failure at 
Walter Reed will require legislation. Legislation that 
addresses root causes, however, will look substantially 
different than legislation that treats symptoms. We have been 
working this problem hard for several weeks now, but we don't 
yet have a clear picture of the legislation needed to correct 
the root causes. We hope that the IRG's report will help us 
move down the learning curve there. When we have that picture, 
we are committed to bringing it quickly to the Congress for 
action.
    Mr. Chairman, I look forward to your questions.
    [The prepared statement of Mr. Dominguez follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Mr. Secretary. I do note, however, 
that the last hearing we had on March 5th, where we asked the 
witnesses there from a similar panel how much time we ought to 
give for review on where they have been and where they have 
gone, 45 days was the date given, so I know I have read General 
Pollack's statement. I think she is going to be a little more 
distinct in what she says has been done to date. But I am 
hoping we have some things accomplished and not just waiting 
for other people to file reports on that.
    Mr. Dominguez. Yes, sir, we are moving out and we have 
accomplished many things.
    Mr. Tierney. Thank you.
    General Pollack, please.

              STATEMENT OF GENERAL GALE S. POLLACK

    General Pollack. Mr. Chairman, distinguished members of the 
subcommittee, I am delighted to have this opportunity to 
discuss with you the actions the Army is taking to improve the 
way that we care for and support our warriors in transition and 
their families. I also want to thank the former Secretaries of 
the Army, Secretary Marsh and Secretary West, for their 
leadership on the Independent Review Group. The work of the IRG 
and the other commissions viewing the Department of Defense 
physical disability evaluation system is very important as we 
continue to re-engineer the Army's medical and physical 
evaluation system.
    Our Army medical action plan is fast-paced and flexible so 
we can quickly assimilate the recommendations from these groups 
into our ongoing efforts.
    On March 5th, Secretary Garon, General Schoomaker, and 
General Cody testified before this subcommittee at Walter Reed 
Medical Center and vowed that the Army would work aggressively 
to identify and fix the problems at Walter Reed. They told the 
subcommittee ``we would not wait for reports or 
recommendations, but that we would fix things as we go.'' This 
is exactly what we have been doing.
    On April 3rd, the Army's medical holdover Tiger Team 
included an exhaustive study of the Army's 11 key medical 
treatment facilities. This team included experts in finance, 
personnel management, medical care, and representatives from 
the U.S. Army Installation Management Command. The Tiger Team 
not only inspected facilities to identify problems, but also 
sought best practices in the care and support of those warriors 
in transition. These practices can be applied at Walter Reed 
and implemented across the Army Medical Command.
    The team found that outstanding and innovative work is 
being done by many great Americans, military and civilian, 
given available resources. There is ample evidence that 
warriors are receiving high quality health care and are 
generally satisfied with our efforts and their clinical and 
administrative outcomes.
    The team identified several best practices, including the 
establishment of a deployment health section, dedicated medical 
evaluation board physicians, and scheduling followup 
appointments with the Department of Veterans Affairs prior to 
their separation.
    On March 19th the Army established a 1-800 hotline for 
warriors and their families who want to raise their concerns to 
the Army leadership. The hotline allows soldiers and their 
families to gather information about medical care, as well as 
to suggest ways to improve our medical support systems.
    The hotline rings in the Army Operations Center and all 
calls are logged, tasked for followup within 24 hours, and 
briefed weekly to Army leadership.
    As of April 9th, the Army had received 848 calls detailing 
468 distinct issues. Of this total, only 245 were medical 
issues, and 162 were tasked to the Army Medical Command for 
research and resolution.
    Last week, in answer to one of the Members' questions, we 
trained 23 soldiers to work as warrior ombudsmen across the 
Army Medical Command. The ombudsman is considered another 
warrior resource and is not a means of circumventing the 
soldiers' chain of command. The intent of this program is to 
help cut through the red tape by linking soldiers and family 
members with the correct sources of information in order to 
answer questions or resolve issues emanating from a lack of 
understanding or simply confusion.
    This plan ensures that soldiers have additional advocates, 
while we correct the administrative process that will require 
policy or legislative change.
    We have much work to accomplish. We are aggressively 
improving the existing physical disability evaluation system to 
minimize the difficulties soldiers have faced. The system was 
developed half a century ago and has become overly bureaucratic 
and too often adversarial. You have heard that often today.
    The Army is developing initiatives to overhaul or replace 
the current process. Rather than settle for yet another attempt 
to re-engineer current processes, our goal is to eliminate the 
bureaucratic morass altogether and develop a streamlined 
process to best serve our soldiers.
    As we move forward, there will be areas of policy, process, 
and administration requiring full collaboration and 
coordination between both DOD and VA. We have worked together 
in the past, and it is imperative that we expand that 
partnership to clarify the issues, fix the problems, and 
improve the process for our servicemen and women.
    We are under no allusions that the work ahead will be easy 
or cheap or quick. We have a lot to do to get this right. 
Fixing the myriad issues we have recently uncovered will take 
energy, patience, determination, and, above all, political 
will. Soldiers are the centerpiece of your Army and the focus 
of our efforts. Soldiers should not return from the battlefield 
to fight an antiquated bureaucracy. Wounded, injured, and ill 
service members and their families expect and deserve quality 
treatment and support as they return to their units or their 
communities.
    We know that the President, Secretary Gates, Secretary 
Nicholson, Secretary Garon, the Congress, and the American 
public are committed to this effort, as it is the cornerstone 
of everything we are doing. With your help and the help of all 
the agencies involved, we are confident that we can match the 
superb medical care soldiers receive at the point of injury or 
illness, whether on the battlefield or during training, with 
simple, compassionate, and expeditious service that ensures 
every soldier knows the Army and the Nation are, indeed, 
grateful.
    Thank you, again, for your invitation to testify. I look 
forward to your questions.
    [The prepared statement of General Pollack follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, General.
    General Schoomaker, do you have a statement?

           STATEMENT OF MAJOR GENERAL ERIC SCHOOMAKER

    General Schoomaker. Mr. Chairman, Congressman Shays, 
distinguished members of the subcommittee, I am Major General 
Eric Schoomaker. I command the U.S. Army North Atlantic 
Regional Medical Command and the Walter Reed Army Medical 
Center.
    I join Major General Pollack and the Department today in 
thanking the subcommittee for the opportunity to discuss the 
many improvements in living conditions for our patients at 
Walter Reed campus, our efforts to improve command and control 
and accountability for soldier welfare, and what we have done 
to build a warrior-centered and a family centered program at 
Walter Reed and throughout my regional medical command and 
beyond, to the medical command of the whole Army.
    First, I want to reassure the committee and the Congress 
the Army, the U.S. military, the American people, that the 
quality of medical and surgical nursing, psychiatric, 
rehabilitative, and other care that is delivered at Walter Reed 
Army Medical Center, our sister medical treatment facilities 
within my region that include Fort Bragg, NC; and Fort Knox, 
KY; and Fort Drum, NY, and others. The U.S. Army Medical 
Command under General Pollack has never been in question and 
remains the highest quality. Frankly, it was heartening to hear 
Congressman Shays say that we provide an unparalleled level of 
care within our hospitals, and that survival on the battlefield 
has reached unprecedented levels in the history of American 
warfare.
    Shortly after national attention was drawn to Walter Reed 
and our care of wounded warriors, an unannounced inspection of 
the hospital was conducted by the Joint Commission. This is the 
Nation's leader in accrediting hospitals and health care 
systems. We were reassured by their finding of high quality 
health care overall, while directing us to areas of 
improvement, especially in the transition from inpatient to 
outpatient care. We fully addressed these areas with a 
comprehensive program for outpatient warrior care management, 
some steps of which I will outline in a few minutes.
    The Army and the DOD leadership pledged that we would fix 
the problems as they were identified. I think that has been a 
question from the subcommittee all morning. Armed with insights 
derived from media accounts, your subcommittee's earlier 
hearings that were held at Walter Reed on March 5th, town hall 
meetings I conducted personally immediately after taking 
command over a month ago, and the excellent recommendations 
provided by the Independent Review Group under former 
Secretaries of the Army, Marsh and West, and many others, we 
have done exactly that. We are eagerly applying best practices 
from our colleagues in the Army Medical Command and Navy and 
Air Force medicine, and we are actively seeking new ideas for 
improving care, for administrative oversight, and services for 
patients and families during this important transitional period 
in their lives. We call these soldiers warriors in transition. 
They are returning to duty after an injury or an illness. They 
are returning to full and productive civilian life after a 
recovery. Or they are retiring with a medical disability for 
continued care and rehabilitation, and hopefully employment 
within their communities.
    We are clear to separate those issues which are unique to 
the Walter Reed campus for which I am accountable, those that 
are Army- and DOD-wide problems, and those for which solutions 
lie in the interagency area.
    All patients, I can reassure you, were moved out of 
Building 18 almost immediately. They have been moved into newer 
barracks on the installation. Many of you have come and seen 
those new barracks. The building, Building 18, will never again 
be used to house patients or families. The new barracks have 
been further upgraded with state-of-the-art computers and 
communications. The Army has been extremely forthcoming with 
that and very aggressive in their support.
    A comprehensive survey of all critical housing and life 
support infrastructure on Walter Reed installation is being 
conducted, and repairs are being performed on a priority basis 
as they are identified by this team.
    The Acting Secretary of the Army and the new Chief of Staff 
of the Army have made it very clear that we should restore 
Walter Reed to a standard which makes all of us proud to work 
and live on that installation until we build and occupy the new 
Walter Reed National Military Medical Center with our Navy 
colleagues in Bethesda, MD, under the provisions of the BRAC 
plan.
    Among the most important improvements is the infusion of 
new leadership officers and non-commissioned officers, 
beginning with my new Deputy Commander, Brigadier General Mike 
Tucker, a combat veteran and a line commander--he is our 
bureaucracy buster, as he has been called--and our new Warrior 
in Transition Brigade Commander, Colonel Terry McKendrick, also 
a combat veteran, and his Command Sergeant Major, Jeff 
Heartless, who, as a combat veteran, has also been a patient in 
our hospital and is very savvy about the problems that soldiers 
and warriors confront.
    With my new Command Sergeant Major Althea Dixon, we have 
given every warrior in transition a new chain of command with a 
smaller span of control for added accountability for their 
welfare. Additionally, we have added better trained nurse case 
managers to ensure fluid administrative processes, and primary 
care physicians for assurance that medical care is coordinated 
and is of the highest quality.
    I am here today to answer any additional questions you may 
have for me or my command about the improvements in care, our 
living conditions, and the administration of this critical 
transitional period in the lives of our soldiers and their 
families. Thank you again for the opportunity to serve in this 
fashion.
    Mr. Tierney. Thank you all for your statements.
    Mr. Braley, you have 5 minutes.
    Mr. Braley. Thank you, Mr. Chairman. Thank you to the 
panel.
    Mr. Dominguez, let me start with you. You talked about the 
supplemental request for $50 million for the medical support 
fund. Were you aware that in the supplemental passed by the 
House there was $1.7 billion above the President's budget 
request for DOD medical assistance, and also $1.7 billion of 
additional funding for the VA?
    Mr. Dominguez. No, sir.
    Mr. Braley. I would suggest that you talk to people within 
the Department to see what can be done within the parameters of 
those additional appropriations to find room for the $50 
million, which I think would be a completely appropriate use of 
that funding that was added to the supplemental.
    Mr. Dominguez. Congressman, Secretary Gates is committed to 
fixing the problem and doing what is right. That is his 
standard he has set. As we were talking about before the 
hearing with the chairman, the resources are available. It is 
about making tough choices. I appreciate that the Congress has 
made those choices in enacting the supplementals that you have 
done. We will make the tough choices, too, to get the job done.
    Mr. Braley. One of the issues that seems to come up over 
and over again is the whole inconsistency in the disability 
evaluation process between the DOD and VA disability system, 
and one of the concerns that is identified in the written 
statements has to do with that process becoming adversarial, 
which is something you identified and General Pollack, you also 
mentioned.
    The reason why those systems become adversarial is because 
patients feel like they aren't being taken care of and their 
concerns aren't being heard. I did town hall meetings with 
veterans groups throughout my District the last 2 weeks when we 
were back in recess, and this is the No. 1 concern I heard from 
veterans advocacy groups is the backlog of disability claims, 
and that is why at the March 5th hearing I specifically asked 
the final panel how many patient advocates were there to assist 
people in the disability process at Walter Reed.
    It was very disturbing to me that there was a 
misunderstanding of the role that case managers and patient 
advocates play, and one of the concerns I have about an 
ombudsman program is typically an ombudsman is a clearinghouse 
for complaints that has the authority to hold hearings and take 
action on behalf of a group of dissatisfied individuals, but 
when you are dealing with the complex bureaucracy that exists 
in the VA and DOD disability systems, you need someone there by 
your side helping you on your behalf. Whether that is an 
adversarial process or not is going to depend, in large part, 
on how the environment is created for the processing of those 
claims.
    I would like to hear what institutional changes are being 
made within the DOD to make sure that adversarial environment 
is reduced.
    Mr. Dominguez. Congressman, what I will tell you is that 
these are works in progress now. We have all heard the same 
thing that you have heard, that the process is cumbersome, 
bureaucratic, unfriendly, and it loses that focus on the 
soldier and the family around the wounded warrior. We all 
recognize we have to turn that around and we have to re-
engineer the processes.
    Now, several efforts are going on right now to look at 
that. Each of the services, as they have great discretion in 
how their process works, is working on that. There is training 
involved for the people that we put in to guide the warriors 
and their families through that process.
    That is ongoing. We don't have all the solutions yet. We 
are working them aggressively.
    As I said in my opening comments, when I leave here today I 
am going to join the leadership of the Veterans Administration 
with some of my colleagues from DOD, and we are beginning the 
redesign of the disability process for both our agencies and, 
again, hope to have that implemented expeditiously.
    Mr. Braley. General Schoomaker, at the March 5th hearing I 
commended your brother for having the courage to say that PTSD 
is real. Part of the concern I have is when we label all of 
these measures with the words wounded warrior it brings about a 
history that has evolved over centuries of what it means to be 
a warrior and doesn't leave much room for people who suffer 
from post traumatic distress order or closed-hit injuries that 
are diagnosed as mild traumatic brain injuries, and give people 
the sense that there isn't a significant impairment that comes 
about to those individuals.
    I admonished him at that time to make sure that message was 
communicated down the chain of command and into the DOD and VA 
health care treatment facilities to change that culture. Can 
you shed any insights on what is going on under your command to 
make sure that those injuries are treated and are perceived 
just as real as a penetrating injury?
    General Schoomaker. I appreciate the question and I think 
you are right on target. I think the Army, especially, has 
taken a very active and aggressive role in recognizing that we 
are in an era right now of emerging science and medicine in 
understanding the nature of injuries in their totality of 21st 
century war. Some of these injuries have undoubtedly been with 
us since warfare began and hostile conflict began. Others might 
be elements of the newer forms of urban warfare and the weapons 
that are being used against us and our soldiers, sailors, 
airmen, and Marines.
    But the fact is the DOD has leaned forward as far as we can 
and needs to go further in understanding what it means to have 
mild traumatic brain injury. I think you heard that from the 
first panel here. We need some fast but good science to best 
understand that, and many of us have suggested that the new 
Walter Reed National Military Medical campus be a warrior care 
center of excellence to include work on that.
    Fortunately, Congress, in the NDAO-6 legislation gave us 
language to coordinate, synchronize all research and treatment 
within the DOD under a blast injury program which is now being 
put together through the Army's Medical Research and Material 
Command, my last command.
    I would have to also say that changing the culture is 
difficult, and we again are leaning forward as much as possible 
by getting leaders, leaders, themselves, leaders of war-
fighting units coming back in the Marines and the Army, 
wherever they might be, to bring their soldiers with them as we 
do the mandatory screening for stress disorder-like symptoms, 
because those symptoms, if recognized and treated early, do not 
result in a lifelong, we believe, disability from PTSD and mild 
traumatic brain injury.
    Mr. Tierney. Thank you.
    The gentlewoman from Minnesota, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman.
    To followup on the PTSD and the traumatic brain injury, how 
often do you screen for that? If I have a loved one who comes 
to Walter Reed, how often are they evaluated for PTSD or 
traumatic brain injury?
    General Schoomaker. Well, ma'am, we screen as often as it 
is needed as often as symptoms dictate that we should be asking 
about that, but it is mandatory that every soldier, sailor, 
airman, Marine on deployment is screened prior to that 
deployment.
    Ms. McCollum. The reason why I ask the question is--and I 
don't know if this is at all the VA centers, but the VA, every 
time one of our soldiers comes in now, has a screening that 
pops up that does a quick evaluation, not an in-depth, but a 
quick evaluation to see if that soldier might be facing post 
traumatic stress syndrome or traumatic brain injury that wasn't 
diagnosed right away. Are you doing that at the DOD?
    General Schoomaker. We don't have that tool, but we do 
have----
    Ms. McCollum. I have some other questions.
    General Schoomaker. Yes, ma'am.
    Ms. McCollum. And I don't mean to be rude by cutting you 
off.
    General Schoomaker. No, ma'am.
    Ms. McCollum. I realize you are all talking to each other, 
so I am sure Mr. Dominguez is going to work with the VA to find 
out what they have, because if they have something we don't 
need to reduplicate the wheel.
    Who places the DOD service personnel in the VA hospitals?
    General Schoomaker. That is on a case by case basis. In the 
case of a soldier coming back to Walter Reed or any of our 
facilities--and General Pollack may want to add to this--we 
have relationships with VA hospitals across the country in our 
local communities. We also have four large VA poly trauma 
centers.
    Ms. McCollum. I wanted to know the DOD personnel--excuse 
me, I might have been too brief in asking my question--who is 
there to help a soldier who has been transferred to the VA 
system who still might be in the Department of Defense payroll, 
and to make sure that person has someone there who can answer 
questions. My understanding, and I will tell you this, is that 
there was one individual who was assigned to cover all the 
different branches of service, which all have different rules 
and regulations, at our VA system in Minneapolis, and the VA 
greatly appreciated having that individual there, but through 
no fault of the VA or the individual who had been assigned by 
DOD they rotated out every so many months. So I want to know do 
you know who is responsible for having that individual assigned 
to a hospital?
    Mr. Dominguez. Congresswoman, we will have to look at that. 
We don't have that clear in policy.
    Ms. McCollum. And I bring it up because I think it needs to 
be cleared up in policy.
    There is a big difference between having a patient who has 
a case worker assigned to them, an advocate assigned to them, 
and an ombudsperson assigned to them. Those are three different 
roles. So you said that you have trained, Ms. Pollack, 23 
people in the Army to be ombudspersons. Now, an ombudsperson is 
probably not the first person you should start with, going 
through a system, because that person is going to be a pit bull 
against the Army for the patient, and I want to know what level 
this individual is really advocating for, because if they have 
to report back to the Army, if their promotion and everything 
is dependent upon the Army, it makes it very difficult to put 
somebody in a position to be at times aggressively in the face 
of the Army. So what have we trained here? More case workers? 
More general advocates to help with red tape? Or people who are 
going to be in the face of the Army on behalf of the patient?
    General Pollack. I think that in this position, ma'am, they 
will be in the face of the Army Medical Department, because it 
is the Army that wants it done, and therefore the Army will 
support them and they will be haranguing us inside the Medical 
Department if we are failing the soldiers. So I think that for 
the time being it is a good option. Many have raised the fact 
that now there are so many people engaged in the care of the 
patient, and that was one of the complaints that we had from 
the soldiers, that there were too many people engaged and they 
didn't know who their advocate was. They didn't know who to 
turn to. That is why I am very hopeful that, as we place the 
nurse case manager into position so that when the service 
member arrives at the facility they are assigned to a nurse 
that will be with them through their inpatient procedures as 
far as oversight, not the moment-to-moment care, but the 
planning and interaction with the family, and then continue 
with that service member through their entire transition 
process.
    Ms. McCollum. Mr. Chair, can I ask for a qualification?
    Mr. Tierney. Briefly, sure.
    Ms. McCollum. OK. So what is the job title of these 23 
people? Are they an advanced case manager? I mean, you just 
described case managers. Is that the 23 individuals that the 
Army has brought on?
    General Pollack. No. No, I was saying that there are people 
that are going to be very closely aligned with the service 
members as soon as they arrive and will stay with them, and I 
think that we are going to see over time that----
    Ms. McCollum. Thank you. The Chair asked us to be brief.
    If you could please provide to this committee what you are 
doing on these three different levels.
    General Pollack. Certainly.
    Ms. McCollum. And who do they have to report for and how 
much autonomy that they have. Thank you.
    Mr. Tierney. I thank the gentlewoman.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Again, thank you for 
holding this hearing.
    General Pollack, there is a view that I hold and I think a 
number of other people hold that doctors do not really consider 
medical administration issues as part of their charge. I think 
you see that even in private hospitals, as well. In other 
words, doctors are for medicine and administration is for case 
managers.
    What I would like to ask you is: what current policies or 
directives does the Medical Command have for medical 
administration staff that work with patients? First, do you 
agree with that assessment? Second, if so, how do you want to 
deal with it?
    General Pollack. I would disagree with that assessment for 
the Medical Command, because the men and women that serve as 
our physicians are also volunteers, and they would not be there 
if they were not interested in caring for the men and women in 
uniform. So I have always seen them as advocates for our 
patients.
    The nurse case manager that I raised a moment ago I think 
is part of that. What we are developing now is a triad with a 
physician, a nurse, and a line soldier, a non-commissioned 
officer, to be the group of three that is able to manage all 
the different pieces to ensure that patient can smoothly go 
through their transition and have everything coordinated. By 
bringing in the different perspectives, I think that we are 
going to have a much more satisfied population.
    Mr. Shays. Then what accounts for the problems we have had?
    General Pollack. I'm sorry?
    General Schoomaker. What accounts for the problems that we 
have had? I mean, we know the problem exists. I was trying to 
identify why it might exist. So you tell me why it exists.
    General Pollack. Why does the problem in the 
dissatisfaction of the patient in the process?
    Mr. Shays. Yes. And, well, first off, you can say it that 
way or we can say the fact that they deservedly can be 
dissatisfied because of what, and then tell me why.
    General Pollack. Well, I think that dissatisfaction is 
related to the length of the process. The challenge is in 
explaining to people sometimes why rehabilitation and the 
length of rehabilitation needs to be in a certain timeframe.
    Mr. Shays. That is really not the problem. I mean, 
otherwise, you are saying that it is just a perception of the 
patient because they just don't understand how difficult this 
issue is.
    General Pollack. No.
    Mr. Shays. And we have literally at one time close to 100 
cases that this committee was trying to help with individuals 
who are getting lost in this administrative Byzantine process. 
We are well beyond that. I was trying to throw out the fact 
that I think doctors want to be doctors and they don't want to 
be administrators. It wasn't meant to be unkind, it was just 
meant to explain something. So if that is not the answer, is it 
because everybody is not communicating with each other because 
of paperwork and technology? What is it?
    General Schoomaker. Could I just make a comment, ma'am?
    General Pollack. Sure.
    General Schoomaker. With respect, sir, I think what I hear 
General Pollack saying is--and I think I need to say this, as 
well. One of the real heartbreaking aspects of everything we 
have gone through is that, whether you are a physician in 
uniform or a nurse or an administrator or whether you are an 
NCO, whether you are a civilian employee, we all like to feel 
very strongly that we are advocates for the patient. I think it 
speaks to how badly broken the system is right now that the 
patient at the end of the day and his or her family feels that 
we are all part of an adversarial system.
    I think we all play a role in every case in trying to do 
best by these soldiers, ill and injured, irrespective of what 
the route of their injury or their illness is.
    What we understand, and I think the point about the 
ombudsman I think points this out, is that we need as part of 
that plan to have, standing aside from the rest of us, because 
at the end of the day the patient and his or her family may 
feel that we are part of their problem, is to put someone in an 
ombudsman or a patient representative's role. At Walter Reed 
right now we have four patient representatives who are 
ombudsmen for patients who can bust through bureaucracy for 
them. They were there before. We didn't put enough emphasis on 
that role. We have three new ombudsman that General Pollack has 
brought in for us to serve in that capacity.
    But I think the causes of what you have seen here, as the 
IRG has laid out, are myriad. We start at Walter Reed with the 
fact that we didn't have a primary care base system, and we are 
working on that.
    Mr. Shays. My red light is on, and obviously we could 
probably go on since there is just three of us, but I would 
suggest to you that, you know, an ombudsman is helpful, but an 
ombudsman is someone who steps in when the system has broken 
down.
    Could I make my motions now?
    Mr. Tierney. Yes.
    Mr. Shays. I mean, one of the things that it seems to me we 
need to be doing is we need to create, obviously, a Defense-
wide ombudsman office that people can turn to. This is one of 
the suggestions that has come out of the work of our committee 
that you served on, as well, last time. I would like to submit 
this for the record. It is H.R. 1580.
    Another one, this was actually advocated by Mr. Bilirakis 
this year. Another one is by myself and Mr. Davis, and this 
establishes a monitoring and medical hold over for performance 
standards. That is H.R. 1578.
    Another is 1577, submitted by myself and others, and this 
is to create a Department of Defense wide program of patient 
navigators for wounded members of the armed forces, people who 
actually take on each individual patient and walk them through 
the process.
    Finally, one to create a standard per-soldier patient 
tracking system that goes from one branch to the other.
    I would just like to say I would love a hearing, Mr. 
Chairman, and I think that you would be inclined to want to 
look at it, and I think the committee is already, but just the 
hand off from the active armed forces to our veterans, because 
we are having just an abysmal time getting records of 
individuals once they go into the VA system. It is like somehow 
there aren't any records for our military personnel. You are 
not going to be holding on to these folks indefinitely. They 
are ultimately going to be veterans.
    I know we are all wrestling with this issue but it actually 
took pictures to get the military to want to do something in 
the way that they are doing it now. It took pictures. Yet, I 
think as you know, Mr. Schoomaker, Building 18 does not define 
Walter Reed in one way or the other.
    Thank you, Mr. Chairman.
    Mr. Tierney. Without objection, copies of those bills will 
be added in the record.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Mr. Shays.
    General Pollack, I don't want to ask you a question on this 
but I just want to make a quick point on that. I think attitude 
is important, and I think that the report that was filed by the 
IRG had some comments to make on what has been happening in the 
past and also the leadership issues there. You were on record 
on March 13th indicating that the media, you sort of attacked 
the media, down-played the problems at Walter Reed, and I think 
your quote from your e-mail read that the media makes money on 
negative stories, not by articulating the positive in life. 
Then you added that you then went on to articulate your 
displeasure with the misinformation about the quality of care.
    I hope that is an indication that you were trying to 
distinguish between those parts of the service that had been 
working will, but an acknowledgment, at least, that much has 
gone wrong, because if you are going to be the leader of this 
situation and now you are going to sit here and tell us that 
nothing is wrong in the face of the IRG report, our March 5th 
hearing, and the numerous other reports on that, I think I 
would be a little hard-pressed to think that you would be the 
person that should be responsible for fixing it.
    General Pollack. May I make a comment?
    Mr. Tierney. If you would like, sure.
    General Pollack. The purpose of that e-mail was because the 
staff across the MEDCOM were reeling from all of the 
negativity, and we have men and women in and out of harm's way 
that have been working very, very hard, and it was my attempt, 
as one of the senior leaders, to remind them that they are 
doing a number of very good things and not to stop doing those 
things.
    Sir, I joined the Army because my big brother had his leg 
blown off in Vietnam. I am very, very committed to the care of 
the men and women who serve. I am not going to pretend at any 
time if something is broken that it is not. But at the same 
time, I needed to reach out to the staff, and that was what the 
purpose of that e-mail was.
    Mr. Tierney. So it is not an attempt at all to fail to 
acknowledge that there were things that need correction?
    General Pollack. No, sir.
    Mr. Tierney. OK.
    General Pollack. No, sir.
    Mr. Tierney. Thank you.
    Mr. Dominguez, in your comments--and I think all three of 
you talked about it, as did the first panel--we are talking 
about senior leaders of the military departments, of the Office 
of the Secretary of State beginning the process of designing a 
system optimized for wounded and severely wounded service 
members, speeding disability determinations, and providing 
support for their transition to civilian life, which Mr. Shays 
was just talking about on that. What is going to be done in the 
interim for that while we are waiting for those final reports 
to come out? Is there anything we can do to make that 
transition better in the short run?
    Mr. Dominguez. I think the steps that are being taken by 
the individual services are actually quite noteworthy in this 
regard, because a lot of the discussions that we have had here 
are about the patient advocates and case managers and 
ombudsmen. One of the things that we didn't discuss, which both 
the Army and the Marine Corps have done, is put in for the 
wounded warriors a chain of command, assign them to a unit, 
give them a squad leader, give them a first sergeant, give them 
a commander. If you want a bulldog advocate for taking care of 
troops, it is called a first sergeant or squad leader.
    Those are now going into place. Those people will have as 
their mission, the command's mission is helping that wounded 
warrior and family transition either back into service or back 
out to civil society. That is the kind of thing that closes the 
seams that Congressman Shays was talking about when he was 
identifying those different fixes.
    The tragedy that these two officers were just talking about 
is the total commitment we have of people working inside their 
seams, believing that what they are doing is solving the 
wounded warriors problem, but not realizing that to the 
warrior, who is looking at this as a seamless process, that it 
is fragmented and broken and confusing.
    Well, a CO, a first sergeant, and a squad leader can fix 
that. I think that is the most significant thing that has been 
done by both the Army and Marine Corps since your hearing on 
March 5th.
    Mr. Tierney. Let me take it up a notch then on that. On 
page 6 of your testimony you say that we have invited 
representatives from the Veterans Administration to sit on the 
council to assist the process as we strive for a seamless 
transition for our service members from the Department of 
Defense disability system to the Veterans Administration 
system. We anticipate a revised Department of Defense 
instruction will be completed in May 2007.
    Mr. Dominguez. Yes.
    Mr. Tierney. So you are talking about the Department of 
Defense's instructions.
    Mr. Dominguez. Yes.
    Mr. Tierney. My question to you: has the President clearly 
indicated at his insistence that this be a seamless process, 
and has he communicated that to the Veterans Administration as 
well as to the Department of Defense, and has he designated 
somebody from the White House to so ride herd on this thing? 
Because you can get your Department of Defense instructions and 
the Veterans Administration can get its instructions. The 
question is: are they going to be joint instructions and is 
somebody from higher up going to give you license to cut across 
that and, in fact, insist on it?
    Mr. Dominguez. Yes, sir. The President set up two 
commissions to advise him. First he put Secretary Nicholson in 
charge of an interagency task force and they have spoken on 
this issue. We are presently reviewing their recommendations. 
And then the President's Commission. So the President----
    Mr. Tierney. You said a commission, but is there any 
indication that the White House has somebody who is going to be 
riding herd on this thing, an individual who is responsible, 
who this committee can hold accountable for making sure that is 
done, because I don't want to be sitting here criticizing the 
Department of Defense when it has done its work and it has 
given its instructions and the Veterans Administration has done 
its work and done its instructions.
    Mr. Dominguez. Right.
    Mr. Tierney. It will all come down to the White House as to 
whether or not they have them working together and giving them 
the support to do that.
    Mr. Dominguez. Well, first of all, I conveyed to you 
Secretary Gates' and Secretary Nicholson's commitment to fixing 
this problem without regard to where the seams are. The 
President did put Secretary Nicholson in charge of the 
interagency task force, but, again, you know, the President 
can't specify what the answer is right now.
    Mr. Tierney. He can sure make sure there is an answer.
    Mr. Dominguez. But he took these two actions to bring to 
him the recommendations for how to fix this, and so from that I 
anticipate, you know, a powerful and strong action by the White 
House.
    In the interim, our two agencies are working very closely 
together. I am going to join Under Secretary Cooper this 
afternoon, and we are working this problem. And Gates and 
Nicholson are passionate about getting this right.
    Mr. Tierney. Do you, sir, agree that the physical 
evaluation, physical disability evaluation system should be 
completely overhauled to implement, one, Department of Defense 
level Physical Evaluation Board/Appeals Review Commission with 
equitable service representation in an expansion of what is 
currently the Disability Advisory Council, as the IRG 
recommended?
    Mr. Dominguez. Sir, I would like to withhold my personal 
judgments on that pending the work that we are going to be 
doing evaluating the IRG's recommendations and the work we have 
already been doing for the last month or so.
    Mr. Tierney. How long do you think it will take you to make 
that evaluation?
    Mr. Dominguez. Secretary Gates will be back here on April 
27th. I think he is scheduled to see the IRG, like, May 3rd or 
4th. I expect he will want the DOD staff's recommendations to 
him about May 5th.
    Mr. Tierney. Directly after May 5th I am going to ask that 
you communicate to the Secretary that one of you get back to 
the committee with whether or not they agree with that 
assessment of the IRG.
    Mr. Dominguez. Yes, sir.
    Mr. Tierney. And, if they agree that can be done, the 
process can be completed within 1 year, as was testified here 
this morning, and, if not within 1 year, what would be a 
reasonable time for us to expect it to be completed so that we 
can continue our responsibilities there.
    Mr. Dominguez. Mr. Chair, if I might, one of the things 
that we are thinking about and just beginning the dialog inside 
the Department is for authority for the Congress to pilot on a 
subset of the population just that kind of thing. This is a 
complex system. We feel like if we could take something, put it 
in place, operate it for several months, that by this time next 
year we would have concrete, hard evidence from a process that 
worked that we could learn from and that we could come back to 
the Congress with very clear and detailed findings leading to 
legislation.
    Mr. Tierney. I hope that, pilot or no pilot, that within a 
year or so we have some firm answers on that, but I hear what 
you are saying.
    We have received reports, we have seen articles about some 
injured soldiers being given lowered disability ratings they 
say because the Army doesn't want to pay the 30 percent, the 
current maximum compensation, for a large number of permanently 
wounded soldiers. Have any of you investigated allegations of 
that nature? How are we going to have somebody accountable to 
make sure that is not happening?
    General Pollack. There is a review of that process going on 
now, sir. I don't have those specifics in front of me.
    Mr. Tierney. Will you share them with the committee when 
you have a chance to get them?
    General Pollack. Yes, sir.
    Mr. Dominguez. I do, sir, want to say this came up in 
testimony that Secretary Garon and Secretary England had before 
another committee of the Congress last week, and they were 
unequivocal in that our policy instructions are directives to 
these boards. That is not part of the calculus that they are 
supposed to be thinking about. This is to be what is the 
disability and how does it rate in the schedule and make a 
determination.
    Mr. Tierney. I will look forward to General Pollack's 
response on that. I appreciate it.
    Mr. Shays, if you will just bear with me 1 second, I have 
some unfinished business.
    General Schoomaker, do you know if Staff Sergeant Dan 
Shannon had his reconstructive surgery scheduled yet, one of 
the witnesses in our first panel?
    General Schoomaker. Yes. I am trying to recall the status 
of him. I know one of the two soldiers has returned to Fort 
Campbell on active duty, Sergeant Duncan. I don't know the 
status of Shannon, but I can get back to you on that.
    Mr. Tierney. Would you do that for us?
    And can you tell us whether or not the Army has taken any 
steps to review the denial of benefits to Corporal McCleod? I 
recall that it was determined at one review that his brain 
function problems they said were the result of a pre-existing 
learning disability rather than a traumatic brain injury.
    General Schoomaker. I can check on that, sir.
    Mr. Tierney. Could you see if that has been re-evaluated?
    And Specialist Duncan has been returned to service, has he?
    General Schoomaker. As far as I know. I saw him last week 
or the week before, and he was on his way back to Fort 
Campbell. Yes, sir.
    Mr. Tierney. Thank you.
    Last question I have is about the problem that was 
testified to earlier, which I have heard in my District from 
some people involved with the psychological and psychiatric 
units, a declining number of mental health, behavioral staff in 
the medical system and some problems about out-sourcing some of 
that, contracting out, which these people that were talking to 
me did not feel was as good as having people within the 
service.
    I know that the preliminary findings of the American 
Psychological Association that 40 percent of the Army and Navy 
active duty licensed clinical psychologist billets are 
presently vacant, and the IRG, of course, found that has 
affected the care and treatment of TBI and post traumatic 
stress disorder. What are we doing about that and what are we 
going to continue to do about that, if you would?
    General Pollack. Sir, we recently had approved at the 
Department of Defense level a critical skills retention bonus 
that we are implementing in 2007 to retain those officers. We 
have also established, because the behavioral health profession 
is so broad, we have instituted a master's of social work to 
assist with the, as well, and that program will begin in 2007, 
as well.
    Mr. Tierney. Thank you. And one of the Secretaries made a 
point that if they are recruiting doctors over 50 they might 
have some success if they didn't impose the 8 year commitment 
rule. Is that being reviewed at all?
    General Pollack. Yes, sir. The G-1, the personnel 
community, is working that as a policy and as a legislative 
proposal, because I think we need relief. If I remember 
correctly, we need relief from a title 10 requirement.
    General Schoomaker. We approve of doctors over 50, sir.
    Mr. Tierney. I approve of all people over 50. Thank you.
    Mr. Shays.
    Mr. Shays. Thank you. I just have a few questions.
    Secretary Dominguez, Ellen Embry, the then Deputy Assistant 
Secretary of Defense for Force Health Protection and Readiness, 
testified before this Committee on Government Reform in 2005 
that DOD would direct all possible resources to address 
outpatient process. Why did this not happen, No. 1? Who dropped 
the ball? What will the Under Secretary do to see that he 
maintains oversight and input into policies that affect our war 
wounded?
    Mr. Dominguez. Sir, unfortunately I am not able to tell you 
who dropped the ball. In terms of what we are doing----
    Mr. Shays. Well, let's not answer the question who dropped 
the ball, but answer this: why did this not happen?
    Mr. Dominguez. Why did this not happen? Well, I think there 
is some uncertainty, but many of us believe that a shortage of 
resources was not the issue, that there were adequate resources 
in the system to be able to deal adequately with outpatient 
care.
    There were some real problems at Walter Reed, in 
particular, as you heard from the IRG, associated with BRAC and 
A-76 that, in the implementation of those program stuff, 
created a real capability gap that was noticed by patients and 
families and resulted in problems that we saw.
    So I don't know that it was a resource problem, and I don't 
believe it was a policy direction and policy architecture 
problem. It manifested itself in execution at this one facility 
because of the perfect storm of events.
    Mr. Shays. This is not a problem at one facility. 
Outpatient is a problem throughout.
    Mr. Dominguez. Yes, sir, and as a result of the light 
shining on Walter Reed, all of the services sent people out to 
all of the facilities where they have----
    Mr. Shays. I guess the problem that is discouraging is, you 
know, this was not a new problem. We documented it was a 
problem. We had people testify under oath that they would take 
care of the problem and the problem was not taken care of. You 
know, it makes you wonder.
    Let me ask another question. The IRG recommends that the 
physical disability evaluation system must be completely 
overhauled to include changes in the U.S. Code, Department of 
Defense policies and service regulations resulting in one 
integrated solution. First, I want to know if you agree in one 
integrated solution. Then I would like to know your honest 
assessment of how this will be done and how long it will take 
and what resources will be needed.
    That is the end of my questions, but I would like an 
answer.
    Mr. Dominguez. Again, I think one integrated solution is 
one we absolutely, positively, clearly have to look at. I thank 
the IRG for putting it on the----
    Mr. Shays. Look at does not mean have.
    Mr. Dominguez. Yes, sir, because we are now evaluating the 
IRG's recommendations.
    Mr. Shays. So you think you need to look at it, but you are 
not sure you need to do it?
    Mr. Dominguez. At the current time I know we have to do 
something to change this process. It is not working. It is not 
working for service members and families. It is not doing what 
we----
    Mr. Shays. How long is it going to take for you to decide 
you need an integrated system?
    Mr. Dominguez. Sir, I think we are going to evaluate, in 
collaboration with the VA, we are going to look at designing 
that system, we are going to look at the statutory bases for 
the systems of disability that now work, which are different 
for the DOD, for the VA, and for the Social Security 
Administration.
    We will see how you can reconcile those competing or those 
different policy objectives--they are coded in the statutes 
enabling these things--into one system, see how we can make 
that work, if we can figure out how to do that, honoring the 
statutory bases of the different calls that have to be made--
are you fit to serve, or do we have to terminate your career, 
have you lost income, and are you unemployable.
    So these different things have to be welded together into 
the system. We will see if we can make that work, and then we 
will come back with a proposal.
    Mr. Tierney. If the gentleman would yield?
    Mr. Shays. Yes.
    Mr. Tierney. I understand from your earlier answer that by 
May 5th or immediately thereafter you are expecting to get back 
to us as to whether or not it can be combined into one, and 
then how much time you think it will take you to do that.
    Mr. Dominguez. Yes, sir, we are going to try to move that 
expeditiously. I am hoping we do that by May 5th, because that 
is when we will have our conversation with Secretary Gates, and 
he will expect us----
    Mr. Shays. What I would have thought the answer would have 
been would have been, one, we know we need to do it, we just 
don't know how long it is going to take, and this is what we 
are going to do to figure out how long it is going to take.
    Mr. Dominguez. Yes, sir.
    Mr. Shays. But, you know----
    Mr. Dominguez. I have to be able to assure you that in one 
system I can be true to the purpose that is enshrined in each 
of the statutes that provide a piece of the disability 
continuum that----
    Mr. Shays. I asked one basic, simple question. How long 
will it take for the various hospitals, VA hospitals, to know 
that they can get records that are accurate about the 
servicemen and women that they are not treating?
    Mr. Dominguez. Sir, if we have shared patients, I believe 
that is happening now with the bi-directional health 
information exchange that has been in place. We are sharing 
records. There are problems. There are, you know, many 
different pieces of a medical record. These two can be more 
specific about it, but that is a major effort, and we are 
sharing data on millions of patients right now with the VA back 
and forth.
    General Pollack. Sir, if I might?
    Mr. Shays. Sure.
    General Pollack. There is significant progress that is 
promised at this time that by the end of the summer the VA and 
DOD should be linked. It will not be as clean as a simple click 
on your computer to move from one screen to another, because 
you will need to go into the other system and query, but 
General Schoomaker and I yesterday afternoon were briefed by 
Mr. Foster and his team from TMA, because this is a concern for 
us, as well, and there seems to be progress on this. But we 
will need to see it.
    Mr. Shays. One is being able to share information within 
DOD and another to be able to share information between DOD and 
the VA.
    General Pollack. Yes, sir.
    Mr. Shays. And in these United States, with such bright 
people and the resources that we should be able to put, it just 
seems to me it is more an issue of will rather than of anything 
else, just the will.
    General Schoomaker. Sir, we are assured that by the end of 
the summer that we will have bi-directional exchange of a large 
amount of the clinical record available to both the DOD and the 
VA system.
    Mr. Dominguez. And there is a significant technological 
challenge here, Congressman. There is the will. There is 
actually commitment by the leadership of VA and DOD to make 
this happen. It is a challenging problem and we are working on 
it very hard.
    We are not, by any means, where we need to be as a Nation.
    Mr. Tierney. Before we wrap up, we asked for a number of 
records in a previous request back on March 5th, or whatever, 
and unfortunately this is all we have received so far, which is 
obviously quite inadequate for that, and a considerable amount 
of time has passed. Do we have your assurance? And who is going 
to take responsibility to make sure that those requests are 
completed in full and promptly?
    Mr. Dominguez. Yes, sir.
    Mr. Tierney. General Schoomaker.
    General Schoomaker. I will have the first delivery of those 
documents to you this week, sir.
    Mr. Tierney. Well, when is the last delivery going to come? 
I mean, this is the first delivery, I guess. When can we expect 
that we will have it? Within a reasonable period of time here?
    General Schoomaker. Yes, sir. I think I will have----
    Mr. Tierney. We are already beyond a reasonable period of 
time, so now we are going to give you a second reasonable time, 
if we can.
    General Schoomaker. I understand, sir.
    Mr. Tierney. Thank you.
    Thank you all for your testimony. Thank you for your 
service to your country, as well. We don't mean to be 
individually tough on you, specifically, but I think you share 
our need to be tough on this issue, and we appreciate your 
willingness to cooperate. Thank you.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
